<html>
<title> - THE ROLE OF THE DEPARTMENT OF DEFENSE IN PROVINCIAL RECONSTRUCTION TEAMS IN AFGHANISTAN AND IRAQ</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]


 
                         [H.A.S.C. No. 110-93] 

  THE ROLE OF THE DEPARTMENT OF DEFENSE IN PROVINCIAL RECONSTRUCTION 
                     TEAMS IN AFGHANISTAN AND IRAQ 

                               __________

                                HEARING

                               BEFORE THE

               OVERSIGHT AND INVESTIGATIONS SUBCOMMITTEE

                                 OF THE

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

                              HEARING HELD

                            OCTOBER 4, 2007

                                     
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                               ----------
                       U.S. GOVERNMENT PRINTING OFFICE 

39-806 PDF                      WASHINGTON : 2008 

For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
Washington, DC 20402-0001 


                                     
  



























               OVERSIGHT AND INVESTIGATIONS SUBCOMMITTEE

                     VIC SNYDER, Arkansas, Chairman
JOHN SPRATT, South Carolina          W. TODD AKIN, Missouri
LORETTA SANCHEZ, California          ROSCOE G. BARTLETT, Maryland
ELLEN O. TAUSCHER, California        WALTER B. JONES, North Carolina
ROBERT ANDREWS, New Jersey           JEFF MILLER, Florida
SUSAN A. DAVIS, California           PHIL GINGREY, Georgia
JIM COOPER, Tennessee                K. MICHAEL CONAWAY, Texas
HANK JOHNSON, Georgia                GEOFF DAVIS, Kentucky
JOE SESTAK, Pennsylvania
               Suzanne McKenna, Professional Staff Member
                Thomas Hawley, Professional Staff Member
                Roger Zakheim, Professional Staff Member
                    Sasha Rogers, Research Assistant
































                            C O N T E N T S

                              ----------                              

                     CHRONOLOGICAL LIST OF HEARINGS
                                  2007

                                                                   Page

Hearing:

Thursday, October 4, 2007, The Role of the Department of Defense 
  in Provincial Reconstruction Teams in Afghanistan and Iraq.....     1

Appendix:

Thursday, October 4, 2007........................................    33
                              ----------                              

                       THURSDAY, OCTOBER 4, 2007
  THE ROLE OF THE DEPARTMENT OF DEFENSE IN PROVINCIAL RECONSTRUCTION 
                     TEAMS IN AFGHANISTAN AND IRAQ
              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Akin, Hon. W. Todd, a Representative from Missouri, Ranking 
  Member, Oversight and Investigations Subcommittee..............     2
Snyder, Hon. Vic, a Representative from Arkansas, Chairman, 
  Oversight and Investigations Subcommittee......................     1

                               WITNESSES

Baker, Col. Ralph O., Deputy Director, Politico-Military Affairs 
  (Middle East), U.S. Army.......................................     9
Kimmitt, Brig. Gen. Mark T., (Ret.), Deputy Assistant Secretary 
  of Defense (Middle East).......................................     8
Shivers, Mitchell E., Deputy Assistant Secretary of Defense for 
  Central Asia...................................................     3
Wilkes, Maj. Gen. Bobby J., Deputy Director, Politico-Military 
  Affairs (Asia), U.S. Air Force.................................     5

                                APPENDIX

Prepared Statements:

    Akin, Hon. W. Todd...........................................    39
    Baker, Col. Ralph O..........................................    55
    Kimmitt, Brig. Gen. Mark T., (Ret.)..........................    52
    Shivers, Mitchell E..........................................    42
    Snyder, Hon. Vic.............................................    37
    Wilkes, Maj. Gen. Bobby J....................................    46

Documents Submitted for the Record:
    [There were no Documents submitted.]

Questions and Answers Submitted for the Record:

    Dr. Snyder...................................................    63
  THE ROLE OF THE DEPARTMENT OF DEFENSE IN PROVINCIAL RECONSTRUCTION 
                     TEAMS IN AFGHANISTAN AND IRAQ

                              ----------                              

                  House of Representatives,
                       Committee on Armed Services,
                 Oversight and Investigations Subcommittee,
                         Washington, DC, Thursday, October 4, 2007.
    The subcommittee met, pursuant to call, at 9:06 a.m., in 
room 2212, Rayburn House Office Building, Hon. Vic Snyder 
(chairman of the subcommittee) presiding.

  OPENING STATEMENT OF HON. VIC SNYDER, A REPRESENTATIVE FROM 
 ARKANSAS, CHAIRMAN, OVERSIGHT AND INVESTIGATIONS SUBCOMMITTEE

    Dr. Snyder. The hearing will come to order. Good morning. 
Good work there, Dr. Gingrey, Mr. Conaway.
    Good morning. We appreciate you all being here with us. 
This is the Subcommittee on Oversight and Investigation. We are 
continuing our look at the Department of Defense's role in the 
provincial reconstruction teams (PRT) both in Afghanistan and 
Iraq.
    Several departments and agencies are involved in the PRT 
program besides Department of Defense (DOD), including the 
Department of State, the United States Agency for International 
Development, and the Department of Agriculture.
    While we may choose to examine the role of the other 
departments and agencies at a later hearing, our witnesses 
today are DOD witnesses.
    By the PRT's very nature, DOD plays a unique and critical 
role. Until PRTs work themselves out of a job, that is, until 
the security situation permits the replacement of the PRTs with 
more traditional diplomatic and developmental assistance 
efforts, DOD will be at the forefront of this effort.
    While every PRT is unique, depending on the security 
situation on the ground and the maturity of developmental needs 
of the province in which they operate, there are three basic 
kinds of PRTs--the Afghanistan PRTs and, in Iraq, the primary 
PRTs and the embedded PRTs, and I would ask that our witnesses 
take advantage of any opportunities to amplify on the 
differences between these kinds of PRTs and the pros and cons 
of the various models that have been used.
    We are also interested in learning how the PRTs are 
affected when security responsibility is transitioned to the 
host governments or when we are planning on that transition 
when forward operating bases are closed or when maneuver troops 
are withdrawn from the area.
    This subcommittee has heard testimony that in Iraq, where 
provinces have transitioned to provincial Iraqi control, PRTs 
have been unable to operate.
    We chose the PRT topic both because PRTs are critical to 
our efforts in Afghanistan and Iraq, and because we think they 
represent a case study on how the interagency process works or 
doesn't work in Washington and in the field.
    And we are joined today by a good panel of witnesses. Mr. 
Mitchell Shivers, Deputy Assistant Secretary of Defense, 
Central Asia Affairs; Major General Bobby Wilkes, United States 
Air Force, Deputy Director, Politico-Military Affairs-Asia, 
Strategic Plans and Policy, with the Joint Staff; Mr. Mark 
Kimmitt, Brigadier General (Retired), Deputy Assistant 
Secretary of Defense, Near Eastern and South Asian Affairs; 
and, Colonel Ralph Baker, Deputy Director of the Politico-
Military Affairs-Middle East, Strategic Plans and Policy of the 
Joint Staff.
    We appreciate you all being here.
    Before we begin with your testimony, we will hear from Mr. 
Akin for any statement he wants to make.
    [The prepared statement of Dr. Snyder can be found in the 
Appendix on page 37.]

STATEMENT OF HON. W. TODD AKIN, A REPRESENTATIVE FROM MISSOURI, 
   RANKING MEMBER, OVERSIGHT AND INVESTIGATIONS SUBCOMMITTEE

    Mr. Akin. Thank you, Mr. Chairman. Good morning and thank 
you all for joining us here this morning.
    Today's hearing is this subcommittee's second public 
hearing on the role of Department of Defense in provincial 
reconstruction teams in Iraq and in Afghanistan.
    A lot of people around here think that problems in Iraq 
need to be solved in Baghdad or in Washington, D.C. My view is 
that the solution rests in the local provinces, with local 
people putting the solutions together and solving their 
problems.
    If we take a look at how America was built, it is clear 
that it wasn't built by starting in Washington, D.C. Our 
country was built by little towns and communities coming 
together, 13 states in all.
    So I am not surprised that it appears our greatest 
successes are happening at the local level in Iraq.
    As I previously stated, PRTs and the subject of 
stabilization operations generally is critical to transforming 
a local area from a combat zone to a business development zone 
or a quiet residential neighborhood.
    In my view, sufficient troop strength combined with 
increasing the number of PRTs has had a significant positive 
effect on building local communities.
    Another aspect of the PRTs which I am interested in is the 
interagency composition of the teams. We often hear that 
Operation Iraqi Freedom and Operation Enduring Freedom require 
all elements of national power, though I think it has been the 
exception and not the rule when this has happened.
    We have heard from former PRT members and how PRTs operate 
on the ground and how interagency issues are resolved in 
theater. I am curious how the interagency in Washington works 
to support the PRTs. In particular, I would like our witnesses 
to comment on the department's role in shaping PRT policy and 
resolving PRT issues in the daily Afghanistan operations group 
meetings and in the weekly Iraq steering group meetings.
    Finally, I would like to understand how the department's 
implementation of DOD Directive 3000.05, military support for 
stability, security transition and reconciliation operations, 
is informed by DOD's work on PRTs.
    It seems to me that PRTs are the best tangible example of 
stabilization operation that the SSTR directive contemplates. I 
would like our witnesses to explain how the department's policy 
arm is connecting the directive to the PRTs.
    Again, thank you to our witnesses for being here and I know 
all of us look forward to your testimony.
    Thank you, Mr. Chairman.
    [The prepared statement of Mr. Akin can be found in the 
Appendix on page 39.]
    Dr. Snyder. Thank you, Mr. Akin.
    Gentlemen, your written statements will be made a part of 
the record, but we want you to take as much time as you need to 
talk with us this morning.
    We will put the five-minute clock on for you, but when it 
goes to red, if you need to talk more, you talk more. That is 
more just to give you an idea where time is at.
    For the committee members' information, we will follow our 
five-minute rule reasonably strictly here this morning. That 
means we will probably get around the group of us more than 
once.
    You all might be interested to know, and you may already 
know this, but both the staff and the members have met in 
private briefings in this room with members of PRTs that have 
come back both from Afghanistan and from Iraq.
    We have also met with DOD civilians, not necessarily PRT 
members, but DOD civilians who have had problems after they 
were wounded from combat injuries because of their civilian 
status rather than military status.
    So there is a series of issue we are looking at. Primarily, 
this morning, we are interested in this issue of interagency, 
how it works or doesn't work, but any comments that you might 
want to make on how you think--if you see any problems or are 
aware of any problems with how our civilian component is 
treated under our laws and regulations as members of these PRTs 
compared to our military folks, as far as benefits or 
incentives or if they are wounded. Any thoughts you might have 
about that, we would be glad to hear of, also.
    Let's start with you, Mr. Shivers, and then we will just go 
right down to General Wilkes, Mr. Kimmitt and Colonel Baker.
    Mr. Shivers.

STATEMENT OF MITCHELL E. SHIVERS, DEPUTY ASSISTANT SECRETARY OF 
                    DEFENSE FOR CENTRAL ASIA

    Mr. Shivers. Yes, sir, good morning. Chairman Snyder, 
Ranking Member Akin, members of the subcommittee, thank you for 
the opportunity to testify on the Department of Defense's role 
in provincial reconstruction teams, PRTs, in Afghanistan.
    PRTs have matured since November 2002 from a single U.S.-
led pilot project in Gardez to a fully international effort 
involving 25 teams in the majority of Afghanistan's 34 
provinces.
    PRTs now represent a major element of the mission to expand 
the reach of the Afghan government throughout the country. 
While the effectiveness of individual PRTs is sometimes uneven, 
the overall PRT effort is achieving noteworthy results and 
requires sustained support.
    The role of PRTs was formally agreed to on January 27, 2005 
by the PRT executive steering committee, the international 
political-military body responsible for PRT direction and 
guidance, and the following mission statement.
    Provincial reconstruction teams will assist the Islamic 
Republic of Afghanistan to extend its authority in order to 
facilitate the development of a stable and secure environment 
and enable security sector reform and reconstruction efforts.
    Of the 25 existing PRTs, 12 are led by the United States. 
The military component of a U.S. PRT is commanded by a 
uniformed officer is task organized to accomplish the following 
functions: operations, administration, logistics, security and 
a variety of enabling roles, including civil affairs and 
engineering.
    Each U.S.-led PRT has approximately 100 military personnel, 
though this number varies considerably.
    The PRT commander coordinates PRT activities with 
representatives from other parts of the U.S. interagency. In 
most instances, this includes representatives from the 
Department of State, the U.S. Agency for International 
Development, and the Department of Agriculture.
    In addition to the resources and expertise leveraged by the 
interagency PRT members, the PRT commander has at his or her 
disposal Commander's Emergency Response Program, (CERP), funds, 
which are used to address urgent humanitarian and 
reconstruction needs.
    CERP remains one of our commander's most effective tools in 
helping ordinary Afghans seek positive changes in their daily 
lives.
    PRTs in Afghanistan all fall under the broad authority of 
the NATO-led International Security Assistance Force, (ISAF), 
although several other organizations have been established to 
help ensure unity of effort among various stakeholders.
    The most important example, the PRT executive steering 
committee, provides high level policy direction and includes 
the Afghan minister of interior, the ISAF commander, the United 
Nations special representative of the secretary general, NATO 
senior civilian representative, the EU special representative, 
and ambassadors of all PRT troop-contributing nations.
    NATO reports that as of July 2007, PRTs have completed over 
9,000 projects in all development sectors. While this 
achievement is notable, it is more useful to focus on less 
quantifiable aspects of what PRTs do.
    First, PRTs act as small embassies for the various 
reconstruction efforts being undertaken by the Afghan 
government, military forces, aid agencies and nongovernmental 
organizations in Afghanistan. They also provide a mechanism for 
mentoring officials of Afghanistan's ministries at the 
provincial level.
    Further, PRTs serve as a vehicle for aligning the 
priorities set out in the Afghanistan national development 
strategy, the ANDS, the overarching strategic document for 
long-term development in Afghanistan.
    Importantly, PRTs reinforce the international community's 
commitment to the people of Afghanistan. Although the overall 
PRT construct is an effective and necessary component of the 
mission in Afghanistan, the PRT effort faces many challenges. 
By nature, PRTs are civil-military entities and, therefore, 
demand close coordination between the various interagency 
contributors.
    As such, PRTs are highly dependent on the leadership skills 
and teamwork abilities of the PRT commander and his or her 
interagency colleagues.
    Additionally, because PRTs fall under NATO direction, 
extensive coordination and consensus between allies is required 
to foster unity of effort. Last, different countries inherently 
have different capabilities and resources at their disposal and 
some must rely on other more capable allies for assistance in 
establishing and operating PRTs.
    In considering the role of PRTs in Afghanistan, it is 
necessary to place them in the appropriate context. The 
international community, in partnership with the Afghan 
government, is undertaking one of the most ambitious 
stabilization and reconstruction efforts in history. PRTs play 
a crucial role in that effort.
    We jointly are extending the reach of a government and a 
nation that has endured decades of war and nearly complete 
destruction of its infrastructure, economy and political 
institutions.
    We are making progress, but ultimate success will take many 
years and will demand sustained interest and commitment of the 
United States and the international community.
    Thank you, sir. I look forward to your questions.
    [The prepared statement of Mr. Shivers can be found in the 
Appendix on page 42.]
    Dr. Snyder. Thank you, Mr. Shivers.
    General Wilkes.

   STATEMENT OF MAJ. GEN. BOBBY J. WILKES, DEPUTY DIRECTOR, 
        POLITICO-MILITARY AFFAIRS (ASIA), U.S. AIR FORCE

    General Wilkes. Good morning, sir. Chairman Snyder, Ranking 
Member Akin and members of the subcommittee, thank you for the 
invitation to testify this morning on the military role of the 
provincial reconstruction teams in Afghanistan.
    Dr. Snyder. General Wilkes, if you would just hold for a 
minute.
    For the members, we received General Wilkes' statement this 
morning. So you may not have gotten it in your office, but it 
is in your packet.
    Go ahead, General Wilkes.
    General Wilkes. In order to accelerate development of 
Afghanistan, the U.S. military, in 2002, created provincial 
reconstruction teams to integrate U.S. military, U.S. 
interagency and host nation government officials.
    Initially, the U.S. Government listed three goals for the 
PRTs--establish security, extend the reach of the Afghan 
government into the provinces, and assist reconstruction.
    The number of teams expanded from three in 2003 to 25 
today. The United States military leads 12, and coalition 
nations lead 13.
    PRTs are increasingly more important and contribute 
significantly to Afghanistan's progress. For the international 
security and assistance force, the PRT is now the principal 
vehicle to leverage the international community in Afghan 
government reconstruction and development programs.
    The recent U.S. strategic review of Afghanistan recognized 
the need to increase the resiliency of the Afghan government 
against the insurgency, strengthen the U.S. Government 
counterinsurgency efforts, and speed up development.
    Many counterinsurgency experts agree that effective 
interagency cooperation establishes the conditions for 
successful prosecution of a counterinsurgency. The PRT serves 
as the principal vehicle for coordinating the U.S. and Afghan 
efforts to securing common goals in Afghanistan.
    The American-led PRTs fall under the command of Combined 
Joint Task Force 82 (JTF-82) as overall national command 
element lead for U.S. forces operating in Afghanistan.
    CJTF-82 coordinates PRT operations with International 
Security Assistance Force (ISAF) headquarters and the U.S. 
embassy for policy guidance. All efforts are in support of the 
Afghan national development strategy.
    PRT projects are funded with commanders' emergency response 
program funds and with U.S. Agency for International 
Development funds and execution is synchronized at subordinate 
CJTF-82 command levels.
    A U.S.-led PRT consists of approximately 85 American 
military members, three American civilians and five Afghans. 
The commanding officer of a PRT and his interagency team are 
responsible for advising local Afghan government officials, 
coordinating international community reconstruction efforts, 
and facilitating local government efforts.
    Two civil affairs teams and an engineer advisory team 
coordinate development and capacity-building activities 
directly with local officials, tribal elders, private 
contractors, United States Assistance Mission in Afghanistan 
(UNAMA) and non-governmental organization (NGOs).
    A military police team coordinates the training and actions 
of the Afghan national police. The military component also 
includes a system operations (SYOPS) unit, bomb disposal team, 
intelligence team, medics, an administration and support 
section, and a force protection platoon to facilitate freedom 
of movement throughout their area of responsibility.
    Normally located with the PRTs are three U.S. civilian 
personnel from State Department, USAID and the Department of 
Agriculture, and one Afghan government official from the 
ministry of interior.
    The State Department's foreign service officer serves as a 
political advisor to the PRT commander and the Afghan 
provincial governor. The USAID field program officer advises on 
development work. The Department of Agriculture employee 
advises the PRT on agricultural development issues and the 
Afghan ministry of interior official provides advice on local 
political dynamics and facilitates intelligence collection.
    PRT is trained as a team at Fort Bragg, North Carolina 
before they deploy. The training includes the participation of 
U.S. Government officials from the State Department, AID and 
USDA.
    The most recent training in the winter of 2006 included 
participation by Afghans. This invaluable team training 
includes weapons handling, convoy operations, cultural 
awareness and theater immersion.
    In addition to supporting the Afghan national development 
strategy, PRTs are a key enabler of the counterinsurgency 
strategy, that is, separating the enemy from the populous, 
connecting the government with the people, and transforming the 
environment at the sub-national level.
    The U.S. PRT in the Panjshir Valley is an excellent example 
of success. Strong cooperation between ground forces, the local 
government and the local populous enabled the completion of 
approximately 90 projects.
    Coordinating additional road construction and a wind farm, 
coupled with other USAID projects, resulted in a district 
center with electricity and many market opportunities.
    The activities of the PRT are setting the conditions that 
bring more local support to the central government, further 
separating the local population from the insurgency and 
continuing to transform the lives of the Afghan people.
    The PRT is the entity to facilitate progress and ensure 
both the counterinsurgency and national development efforts are 
complementary and ultimately successful.
    Our goal for the future is for the reach of the Afghan 
central government to expand into the provinces and districts. 
With improved security conditions and an increasing local 
government capacity, the PRT role and functions will reflect 
the changing environment and accommodate increasing Afghan 
government capability.
    As we look to the future, perhaps the biggest challenge in 
fielding PRTs will be finding well qualified, experienced 
people to serve as team members. Although PRTs are not 
exclusively a military project or program, the initial reliance 
on DOD personnel to staff PRTs is not surprising.
    DOD is the only department of government that currently has 
the capacity to surge. The State Department and other agencies 
can hire additional personnel over time and are doing so. 
However, the lesson of Iraq and Afghanistan, as well, is that 
our nation will be well served if there exists a surge capacity 
in the nonmilitary skill sets that are so important in the 
kinds of conflicts we have been engaged in since the early 
1990's.
    We must build additional civilian capacity to participate 
in these efforts. It is vitally important that we increase the 
capabilities within civilian agencies, a reserve of civilian 
experts, civil engineers, retired local government officials, 
business executives, water and sewer managers, comptrollers, 
public health administrators and the like to provide a rapid 
response capability the Nation lacks today.
    Thank you and I look forward to your questions.
    [The prepared statement of General Wilkes can be found in 
the Appendix on page 46.]
    Dr. Snyder. Thank you, General Wilkes.
    General Kimmitt.

    STATEMENT OF BRIG. GEN. MARK T. KIMMITT, (RET.), DEPUTY 
          ASSISTANT SECRETARY OF DEFENSE (MIDDLE EAST)

    General Kimmitt. Chairman Snyder, Ranking Member Akin, 
members of the committee, thank you for the opportunity to talk 
with you today on the subject of provincial reconstruction 
teams in Iraq.
    They are different than the provincial reconstruction teams 
in Afghanistan, have a different function, have a different 
role, and are achieving effects.
    Their mission is to assist Iraq's provincial and local 
governments with developing a transparence and sustained 
capability to govern by promoting increased security and rule 
of law, promoting political and economic development, and 
providing the provincial administration necessary to meet the 
basic needs of the population.
    PRTs do this, in large part, by establishing and 
strengthening relationships with local leaders and local 
governments, business community and elected officials. They are 
improving governance capabilities by teaching technical, 
managerial and fiscal skills that enable local government 
officials to provide essential services and other key 
development projects to the Iraqi people.
    The result is a growing self-reliance at the local and 
provincial government levels. You have heard the term ``bottom-
up progress.'' In fact, PRTs are at the forefront of this.
    As you know, the State Department has the lead for PRTs in 
Iraq, but they truly are an interagency effort and we see a 
significant DOD responsibility for their success.
    We have State Department foreign service officers, 
Department of Defense civil affairs officers, engineer 
officers, USAID project leaders, Department of Justice rule of 
law experts Department of Agriculture development specialists, 
working together alongside military units to achieve results in 
those communities.
    As you know, there are ten pre-surge PRTs, 15 embedded 
PRTs, and five provincial support teams on the ground in Iraq 
and we can clarify the difference between each of those in the 
question-and-answer period.
    The original five PRTs were established in 2005 and 2006 
and focused primarily on the provincial government level. Seven 
of the ten are led by the United States, while three are led by 
our coalition partners from Great Britain, Italy and Korea.
    As part of the President's 2000 new way forward strategy, 
we were directed to increase the number of PRTs. These 15 
additional PRTs, embedded PRTs, work side by side, embedded 
into our brigade combat teams and focus on district and local 
level governance.
    The five provincial support teams, comprised of one or two 
members, serve in areas where there is not a major presence of 
U.S. forces.
    Although the Department of State has the lead for PRTs, 
DOD, due to its surge capability, provided personnel on an 
interim basis to expedite standing up what we call the new way 
forward EPRTs.
    Our experience in this demonstrates the need for civilian 
reserve capability, as it is important we increase these 
capabilities, as was noted by General Wilkes, within civilian 
agencies, to create and fund a civilian reserve to rapidly 
deploy and draw on outside experts in types of contingency 
operations when needed.
    As to the Embedded Provincial Reconstruction Teams (EPRTs), 
they have only been in place for a few months, but early signs 
are highly encouraging and we are seeing extremely positive 
results. Over time, we hope to see increased capabilities from 
the Iraqis to govern themselves, because at the end of the day, 
the purpose of the PRTs are to put themselves out of business 
and hand this responsibility over to the people of Iraq.
    Frankly, we see the EPRTs and all the PRTs inside of Iraq 
as a success story and that success was created by individuals 
from different agencies on the ground every day.
    Mr. Akin's point we can discuss a little bit later in terms 
of whether this is better managed through better control from 
Washington, D.C. or if we should continue to allow these to 
evolve on the ground as we develop our doctrine.
    With that, let me pass it over to Colonel Baker and I look 
forward to your questions.
    [The prepared statement of General Kimmitt can be found in 
the Appendix on page 52.]
    Dr. Snyder. Thank you, General Kimmitt.
    Colonel Baker.

  STATEMENT OF COL. RALPH O. BAKER, DEPUTY DIRECTOR, POLITICO-
           MILITARY AFFAIRS (MIDDLE EAST), U.S. ARMY

    Colonel Baker. Mr. Chairman, Congressman Akin, members of 
the committee, thank you for your interest in our nation's 
security and the honor of testifying before you this morning.
    I appreciate your support of the men and women of our armed 
forces who, around the world, often in very difficult and 
challenging environments, and far from home and family, are 
making a difference.
    Our goal remains an Iraqi government that transitions to 
self-reliance, where all Iraqis unite against violence and 
perceive the government of Iraq as the legitimate authority to 
provide security, law and order, and basic services.
    Provincial reconstruction teams are the front line 
civilian-military operators who serve a vital role in the 
campaign to stabilize Iraq with our coalition partners. They 
serve as the primary interface between U.S. and coalition 
partners and provincial and local governments throughout Iraq.
    As part of the President's January new way forward 
strategy, the interagency, led by the Department of Defense and 
the Department of State, partnered in order to double the ten 
paired PRTs, so named because of their specific alignment with 
geographic provinces and whose principal focus is a provincial 
government.
    The ten additional PRTs, integral to the President's new 
way forward, are embedded. Referred to as EPRTs, the principal 
focus is on district and local governments. These EPRTs work 
hand-in-glove with brigade combat teams or their Marine 
counterparts, regimental combat teams.
    At the request of Secretary Rice, DOD agreed to provide 
some DOD personnel to expedite the standing up of the ten new 
way forward EPRTs and over the summer these teams were formed 
by personnel provided by DOD, State, USAID, Department of 
Justice, and the Department of Agriculture.
    These teams have already begun to make a positive impact. 
For example, PRTs have been instrumental in developing local 
capacity to prioritize funds and manage projects. As a result 
of PRT technical assistance, provinces have obligated over $1 
billion worth of Iraqi-funded reconstruction projects, a 
significant achievement in a country with a history of central 
control.
    Iraq now has provincial counsels, sitting together, 
debating the merits of various projects, developing budgets and 
letting contracts. This effort not only helps build local 
capacity for budget execution, but improves the democratic 
process as desperate interests compete for resources and 
parties negotiate to bargain to resolve complex problems.
    Concurrent with the standup of ten EPRTs over the spring 
and summer, manning was authorized for the formation of an 
additional four new EPRTs at the request of General Odierno.
    A fifth new EPRT team is also being assembled from manpower 
within theater. These five EPRTs are currently forming and will 
begin to function by the end of October, bringing the total of 
PRT/EPRTs to 25, ten paired and 15 EPRTs.
    Throughout these processes, DOD has coordinated closely 
with the State Department and, in November, State will begin a 
phased replacement of the interim DOD personnel for the ten new 
way forward EPRTs, completely replacing them by March of 2008.
    We attribute a large part of the success of PRTs to the 
versatility and skill sets tailored to the specific and unique 
challenges in their local environments. Additionally, embedded 
PRTs provide a unique benefit as a result of their integration 
with their host combat teams.
    What we have learned is that the fusion of the PRT with the 
combat team helps coordinate and achieve objectives.
    The strategic situation in Iraq will ultimately be solved 
by political means. To that end, PRTs play an integral role in 
advancing the political process from the local district and 
provincial level.
    Thank you for allowing me to testify before you this 
morning. I look forward to answering your questions.
    [The prepared statement of Colonel Baker can be found in 
the Appendix on page 55.]
    Dr. Snyder. Thank you, gentlemen, for your testimony.
    Two members of this committee, Jeff Davis from Kentucky is 
not with us, and Susan Davis from California, are the head of a 
caucus here. What is the formal name, the interagency reform?
    Ms. Davis of California. Working group.
    Dr. Snyder. It is a working group and it is probably more 
group than working right now. There is a lot of interest on 
this committee on the whole issue of interagency interactions 
and the impacts on both Afghanistan and Iraq.
    If there is no objection, Mr. Akin, I am going to have Mrs. 
Davis take the first five minutes. Then we will go to you and 
then come back to me.
    So, Mrs. Davis, for five minutes.
    Ms. Davis of California. Thank you very much, Mr. Chairman. 
I apologize, because I am going to have to leave in a few 
minutes and hopefully come back.
    But I appreciate very much you all being here. You are all 
individuals that we hope to look to and secure your brains, 
your experience, to understand this better. And our goal really 
is to educate the members, to have us be in a better position 
to really evaluate these issues and understand the extent to 
which the role that Congress can play a role or the extent to 
which we ought to just stay out of it. So that is really what 
we are trying to look at.
    I have basically three questions and perhaps if you could, 
in some way, flesh these out quickly.
    One is, how do we evaluate the PRTs? You mentioned the 
completion of projects. I guess I would look to the number of 
people in the area that are employed that weren't employed 
before the PRT gets there.
    Are there some standardized ways that you can begin to 
evaluate that? Access to local power. How many people are 
involved after the PRTs have been in effect?
    Then I guess the other real question is, how do we evaluate 
when they have been successful and when they should phase out? 
Are you establishing some--I don't want to use the word, 
``benchmarks'' here, but are you establishing some guides for 
how we really truly evaluate that and how you can determine 
that, for one reason or another, they are really not being 
effective and what is it that is making them less effective 
than something else?
    We know personalities play a role, a lot of dynamics 
environmentally within, one size doesn't fit all. We know that. 
But are we developing some real guidelines for looking at that?
    How do you surge? How are you thinking about potential 
surge? How does this fit into overall national security plans 
as we are planning not just for tomorrow, but really 10 years 
out, 15 years out? What kind of training, what kind of 
mechanism needs to be in place?
    And, finally, I think, Mr. Kimmitt, in talking briefly 
earlier, how do we reward the people who are part of this 
particularly in the services, in the military? How do you 
reward them for that time that they have spent and the 
experiences they have gained and impact that they have had in 
changing dynamics and how do we begin to really establish that 
so that that experience is as important as some other 
experience in promoting career opportunities?
    Thank you.
    Mr. Shivers. I would say that there isn't a one-size-fits-
all standard series of metrics at this point for PRTs in 
Afghanistan.
    There is a growing appreciation of the types of things that 
work and those things that don't work and there is certainly a 
lot of effort underway in terms of communicating lessons 
learned and creating standard organizations and things like 
that and opportunities for PRTs to communicate amongst each 
other the lessons that they are gaining as they operate.
    Obviously, as you point out, Ma'am, there are a complex 
series of environmental factors to do with geography, to do 
with security environment of the 25 PRTs in Afghanistan. There 
is a wide range of conditions that they operate within.
    So I can assure you that local commanders, those that are 
responsible for the PRTs, have a series of metrics that they 
measure their staff against and in the reporting line, they do, 
as well, and there is a sincere attempt to get more faithful 
reporting of what is being achieved with this.
    After all, these are quite expensive organizations to run 
and we have great hopes for their ability to achieve positive 
results on the ground.
    So I think the standardized set of metrics is still 
somewhat elusive, but there is certainly an attempt to measure 
more faithfully and with greater fidelity what we are achieving 
there.
    When you talk about rewards, I was heartened to see that a 
number of previous witness before this committee indicated that 
they did feel that their own particular personal service was 
rewarded thereafter and I know there is some effort both in the 
military and in the civilian sectors to recognize people that 
have served in Iraq and Afghanistan and create career 
opportunities for them that demonstrate the country's 
appreciation for their service.
    How systematic that is, again, I can't testify to that, but 
I know that is an important element and, indeed, when we are 
looking at employing people at OSD, we, for instance, heavily 
weight those people, give advantage to those people that have 
served in Iraq and Afghanistan.
    Dr. Snyder. Any other members, go ahead and respond.
    General Wilkes. If I may, from a personal perspective of 
how we take care of our people, I know that when we select the 
individuals to go on these PRTs, particularly in the command 
side of the house, they go through a screening process, just 
like we do our commanders at any other units.
    And so there is only about 50 percent that really get 
through the command screening and are then selected. So, 
therefore, they are set up in the promotion process having 
already been recognized and screened as a commander.
    And so when they come out of the other end, like Mr. 
Shivers said, they have that commander's stamp on their record 
and they are being reviewed for the next level of opportunity. 
And the personal rewards of being a part of that and serving in 
Afghanistan and Iraq I think are significant to folks and we do 
look on the staffs here to hire those kinds of people that have 
that experience.
    So we are institutionalizing that, I think, as part of our 
promotion systems.
    How to evaluate the PRTs and their effectiveness is a 
difficult issue. We don't have a standard set of metrics yet. 
They vary by each of the provinces and the regions that these 
PRTs operate in and it depends upon the needs of that region 
and the counterinsurgency that is being faced in that region.
    In places where you have more stability and you go to less 
conflict, you can do more things in a little bit different 
fashion. Where you have an educated populous that is willing to 
take on some of the roles of government, it moves a whole lot 
faster and we see the varying differences just from border to 
border within the specific regions within Afghanistan today, 
where we are more effective in different regions.
    Where the insurgency progresses, it is a little bit harder 
for us, but over time, I would suggest that the measure is 
going to be where commerce and the freedom of the people rule 
and the government is able to take over and to maintain that 
territory with their given Afghanistan police forces.
    We are seeing an effective use of our PRTs and, at that 
point in time, I think we can probably back out at least into 
the background and let the Afghan government start working it.
    So that is kind of the measurement we are looking at.
    General Kimmitt. Again, this partially goes to the question 
of the differences between Afghanistan and Iraq. We used to 
joke about Afghanistan being a 14th century economy rushing 
headlong into the 15th.
    And what the PRTs, I would suggest, in Afghanistan are 
doing are trying to build something that was never there, road 
networks, so on and so forth. By contrast, in Iraq, I went to 
our PRT handbook, which differentiates requirements, and it 
says, ``There is a stronger emphasis in Iraq on capacity-
building rather than reconstruction. Capacity is defined as 
coaching, mentoring and training in good governance and 
economics.''
    So to the extent that the PRTs in Iraq are measured by the 
success of the local government to be able to do their job, the 
ultimate effect that we are seeking is to put them out of a 
job.
    We do not have PRTs in every province in Iraq. Two in 
particular, Dahuk and Sulaymaniyah, are considered to have 
sufficient governance capability themselves that doesn't 
require U.S. insertion or coalition insertion into those 
provinces.
    So going to the question, Ms. Davis, in regards of how are 
you going to know you are ultimately successful, it is when we 
close that PRT, PST or EPRT down, because the local people are 
doing the job for themselves.
    Some of the metrics that can be used, I would suggest, 
would include their ability to get funds and obligate funds 
given to them from the Iraqi ministry of finance, their ability 
to run their own provincial health systems, their own 
provincial education systems.
    And that is why each of the PRTs has a different focus, 
because as you might imagine, in each of those provinces, there 
is a different capacity already existing on the ground.
    Some of the provinces have very developed health systems, 
particularly in the south. Others in the west don't necessarily 
have that. So that is where we put more emphasis.
    But to your point on the metric, the ultimate metric is 
when there is no longer a need for that PRT.
    Colonel Baker. I would like to add just one final comment, 
ma'am, to your question and perhaps bring it down to more of a 
local level at the EPRT/Bridge Combat Team (BCT) level.
    There are local metrics that commanders and team leaders 
use and some of them are as simple as numbers and types of 
projects that they contract, that they complete. Some are 
becoming more complex in terms of assessing budget execution, 
which Mr. Kimmitt was just alluding to.
    But ultimately, we are trying to understand the effect that 
the PRT activities are having on the citizens in the province 
and many times it is difficult to be that objective.
    You have to really be more subjective in your metrics. And 
so we found that certain things, like the reduction in levels 
of violence, were directly proportional many times to the 
process in terms of reconstruction and building, a targeting of 
improving essential services that the PRTs were instrumental 
in, so that you could graph and track that at the local level.
    The number of unsolicited tips that the local citizens 
begin to provide the security forces begins to raise and many 
times that is because they--it is a quid pro quo society. They 
don't have anything to give back for what you do for them 
except information and that is really where the PRT and the 
counterinsurgency components begin to interact at the local 
level.
    One of the things I talk about to groups is the wave 
factor. I don't know if you have ever heard of that. But when I 
was driving through a neighborhood and nobody waved at me, not 
a child, not a woman, not a man, I knew that there were some 
very serious and fundamental problems in that particular 
neighborhood.
    When I drove through a neighborhood and the children waved, 
but the adults did not, things weren't rock bottom, but they 
weren't good either. And when you are driving through a 
neighborhood where everybody is waving to you, it tells you 
that you have begun to have an effect on that population. You 
have reduced the levels of violence.
    They are sharing information with you. You have created 
some trust and confidence between you and the citizens and, 
probably more importantly, hope and expectations that these 
small accomplishments that we make in the local areas will 
allow the larger national accomplishments to take root over the 
long term and that gives us that space and that time we need to 
build that bridge from the bottom up and the top down for local 
and national accommodation and reconciliation.
    So I hope that answers it somewhat.
    Dr. Snyder. Mr. Akin, for five minutes.
    Mr. Akin. Thank you, Mr. Chairman. A couple of quick 
questions here.
    The first thing, and maybe this is two separate answers 
relative to Afghanistan and Iraq, but let's say you have got a 
local military commander that has some money in his pocket so 
he can fix somebody's sewer or a pothole or whatever it happens 
to be, which we found to be very effective.
    Now, who coordinates between the local military commander 
in an area and the PRTs what project is going to be done and 
how do you work that through? I assume it may be different in 
both.
    Just a quick answer, because I have got a couple of other 
tougher questions. But just how does that work?
    Mr. Shivers. Are you asking about the specific approval 
process?
    Mr. Akin. Yes, that cycle. Let's say that there is a water 
line out between here and there and the military commander in 
the area thinks, ``Boy, we could build a lot of brownie points 
if we fix the water line'' or something.
    How do you work between the government, the PRT--I mean, 
the Afghan government, the PRT and the military commander in 
charge? What is that coordination process on various things 
that you are working on?
    Mr. Shivers. Again, sir, it would depend on the operating 
environment that you find yourself in. If you are cooperating 
closely with Afghanistan government officials, that is, that 
they have a good functioning local government, then you would 
look for--depending upon where the recommendation came from, it 
could have come from a village elder, a local mullah, you would 
coordinate that with the mechanism at the PRT for liaison with 
the Afghan government, the local district or provincial 
government, village government.
    There is a relatively formal system of approvals, as you 
might expect, because it is U.S. taxpayer money that is being 
expended and strict documentation that is attached to it, but 
it is applied fairly flexibly.
    Anecdotally, I have never done a survey of the entire 
thing, but I do question returning officers, people who have 
been in command of PRTs, to ask them how flexible the system is 
and how quick they can get.
    So there are a variety of different points of approval, but 
a lot of delegated approval, as well. So PRTs, for instance, 
have----
    Mr. Akin. Who makes the decision, though, the final 
decision of whether you are going to do something or does it 
depend?
    General Wilkes. There is kind of a hierarchy. Obviously, 
the development plan for Afghanistan is the lead list of 
directions. That goes into an embassy with the ambassador and a 
group of all the interagency, including the U.S. forces piece 
of it, that ties together with all the NATO pieces, and they 
look at the larger project lists of things.
    Anything that is over about $1 million or something or 
other is approved at that level. As you get down into the CJTF-
82, anything below $1 million, they would be the decision 
authority in that.
    Mr. Akin. Who would be the decision authority?
    General Wilkes. The CJTF commander. And as you get down 
into the brigade combat team, the commander there has the 
authority. And I am not talking that these guys are going to 
unilaterally be the final say on everything. They work with the 
interagency team.
    They have project lists between that and about 50. When you 
get down to the 50,000 and below, your PRT commander has 
authority on those kinds of dollars and with his team there, he 
would execute that money.
    General Kimmitt. A great question and that is exactly why 
we formed the EPRTs to put the brigade commander and the 
Department of State under the same tent, working together, both 
looking at the same campaign plan, both looking at the effects 
in their neighborhood to make this as simple as possible.
    I will Ralph pass on the details of that.
    Colonel Baker. Sir, there are really two cases here. One is 
where you have an emergency essential service that you need to 
remedy and then there is also the long-term project list that 
you want to plan over time to improve the quality of life.
    What you will typically find is that, ultimately, the PRT 
team leader has responsibility for prioritizing and making the 
final call on those elements in the economic and the rebuilding 
area that have to be repaired.
    However, it is a collaborative effort between the brigade 
commander and that team leader. They both have moneys. The 
commander has his CERP fund and the team leader has his quick 
reaction funds that can both be targeted at the same 
infrastructure requirements.
    An so typically what you will find is the brigade combat 
team and the team will form their own committee that will 
essentially determine in their work plan all the different 
projects that they have to work on and what priority they have 
to work on them.
    If they are smart, and many of them are, they will try to 
spend other people's money before they spend their own.
    Mr. Akin. Most of them are.
    Colonel Baker. For example, we used to take everything in 
our area that needed to be repaired, fixed or built and 
prioritize it and then we would bring in NGOs, we would bring 
in the Army Corps of Engineers, we would bring external 
contractors in and try to get them to take on those projects in 
our area so that we didn't have to spend and commit our moneys 
to those projects.
    Then after we had bid everything out that we could, we 
would then focus our funds on those areas that we thought gave 
the citizens the most benefit and also benefited us from a coin 
standpoint.
    General Kimmitt. But I think it is also important to note 
that by putting people in the same Foreign Operating Base 
(FOB), working side by side every day, living together, working 
together, eating together, talking together, you do get that 
synchronized view inside these embedded PRTs where it is not, 
``Well, we need to go over to Bavil to talk to the PRT. We are 
over here in Wasit.''
    Putting them together in this embedded, it is starting to 
become very, very apparent to us the wisdom of that decision 
for them to have the same common situational awareness and the 
same desire to achieve the same effects in the same location, 
whether you are State Department, USAID or military, and things 
get worked out on the ground in a remarkable way that don't 
often do it when you have a lot of wiring diagrams and 
disparate locations.
    Mr. Akin. Thank you. I am out of time.
    What I was going to ask, and maybe come back around later, 
so don't answer this question, but you can think about it, is 
who is going to run basically--what we are seeing in this kind 
of a conflict, there is a need for whether it is a PRT or 
whatever you want to call it, but there is need for those kinds 
of teams.
    I guess my question, and I think it is a question of other 
people on the committee maybe, is who ultimately should be 
running those things? Should that be something that is 
considered a DOD thing and we are actually going to budget for 
that and we are going to have a structure in the way that we do 
that?
    Is that a State thing or how does that work? So that might 
be a politically dangerous question to answer, but we would be 
curious about your opinion on it.
    Thank you, Mr. Chairman.
    Dr. Snyder. Gentlemen, if you want to respond to that, any 
comments that come to mind, if any of you want to respond to 
Mr. Akin.
    General Wilkes.
    Mr. Kimmitt.
    General Kimmitt. To our view, it is pretty well laid out in 
NSPD-44, as well as DOD 3000.05, that there is an understanding 
that this is an interagency effort.
    Where the rubber meets the road, of course, is in funding. 
The Department of Defense budget is roughly 20 to 25 times that 
of the Department of State. And so we always have to work our 
way through that.
    But in many ways, we have the directive from the NSPD and, 
internal to our own department, DOD 3000.05 that talks about 
these types of stabilization.
    We have a deputy assistant secretary of defense for 
stability operations. She is responsible for putting together 
the policy within DOD for how we work with the State Department 
and other agencies.
    I think that there is a significant desire on the part of 
all the agencies, the interagency, to come together to try to 
put into policy what we are finding is working so effectively 
in practice on the ground.
    Dr. Snyder. Thank you.
    I will take my five minutes now.
    We met with, as I mentioned, both civilian and military 
members of the PRTs in both Afghanistan and Iraq and really 
came away with a sense of just really some remarkable people 
who care a great deal about what they do and felt like that 
their superiors cared a great deal about what they do.
    I think one of them told us that before he went over, CNO, 
I think, the Chief of Naval Operations got them all together 
and said, here is the CNO saying, ``What you are about to 
embark on is very, very important to this country,'' and that 
kind of thing sticks with you.
    But I think they are a remarkable group of people. The 
question that we all have been wrestling with, and I mentioned 
to Jeff Davis before he came in, with this interagency stuff, 
do we have some inherent obstacles in the way things are set up 
that may interfere with that.
    Mr. Kimmitt, let me just ask you one quick question before 
I get to my questions for today.
    We heard testimony, as I am now going back to your former 
role in Iraq, but we had testimony a couple weeks ago from a 
representative of the Department of Labor, in public testimony, 
and I presented a scenario.
    I said if I had a DOD civilian, of which you are now one, 
and he was assigned to Iraq and volunteered to go to Iraq or 
ended up there as an emergency essential in Iraq and had an 
hour off during some week, took some free time, went outside in 
his cutoffs, had a basketball, there was a hoop, put on his 
music, clearly not doing work-related activity, and mortar came 
in and he was wounded.
    Would he be considered covered by worker's comp because of 
his war wound? And I thought that was a no-brainer and the 
Department of Labor guy said, ``We will need to get back you on 
that'' and we have not yet received an answer in two weeks that 
a civilian DOD employee who received a mortar wound, clearly 
doing something recreational, but that somehow they were 
applying civilian standards here in D.C., ``Well, that was 
recreational. You are at the bar for happy hour or something,'' 
that wouldn't work.
    I mean, does that surprise you that we actually still have 
this uncertainty from Department of Labor about that? Because 
it impacts--I think it is one of the questions that civilians 
will ask themselves, ``Do I really want to be a civilian in 
that environment?''
    Does that surprise you we have not gotten that?
    General Kimmitt. Chairman, it does surprise me, and I think 
the answer is self-evident.
    Going back to my uniform days, we had very clear 
regulations in terms of what injuries incurred in the line of 
duty and non-line of duty. Obviously, if that was a soldier 
playing basketball and----
    Dr. Snyder. Was mortared.
    General Kimmitt [continuing]. Was mortared, there would be 
no question about that, or even back here in the states, if 
that happened while he was on a weekend and incurred a 
significant injury like that.
    Now, there is a term called ``thrill seeking'' that they 
are not indemnified against. So if somebody is out there----
    Dr. Snyder. Bungee jumping while drunk without a rope.
    General Kimmitt. Then they are not covered. That would be 
considered non-line of duty.
    It does surprise me and I think all of us would advocate 
that those same rules apply to anybody that is in the combat 
zone serving our nation.
    Dr. Snyder. That was our concern, too.
    One of the things that came out when, I think, we met with 
our representatives from Iraq, our PRT members, several of whom 
were still in the military, and one of them made a comment--
maybe other members can correct me--but said, ``You know, we 
actually wish that they weren't called the same thing,'' that 
the function of the PRTs in Iraq is so different from the PRTs 
in Afghanistan.
    It is different functions. I think he said that, ``We don't 
think we ought to have the term `reconstruction.' We really are 
like an advisory group, a capacity-building for how the 
political process works.''
    And I suspect if we went around to most Members of Congress 
and said true or false, the PRT function in Afghanistan and 
Iraq is about the same, they would all say, ``Oh, yes, it is 
about the same.''
    Is it that dramatic a difference--it sounds like it is--
between the PRTs in Afghanistan and Iraq that we really need, 
as Members of Congress and policy-makers, to be looking on it 
as a different function?
    Colonel Baker and General Kimmitt, maybe I will ask for 
your response, since it is primarily about Iraq now.
    Colonel Baker. Mr. Chairman, we have had this discussion 
before about the manning of the different PRTs in Afghanistan 
and Iraq and I agree with what Mark Kimmitt read to you earlier 
in the handbook, that they do serve distinctly fundamentally 
different purposes in each of the two countries.
    And clearly what the focus of the Iraq PRTs is is on--it 
does do some reconstruction, but its primary focus is on 
capacity-building. And I appreciate your comments that it can 
be misleading and perhaps may, in fact, cause those to be 
misinformed about what they do and their intent to support what 
they do.
    But, yes, there is a difference between the two teams and 
capacity and reconstruction I think is the easiest way to 
visualize that.
    Dr. Snyder. The one aspect of that when I thought, well, 
maybe it was a good thing, is if you are an Iraqi and you are 
coming to be visited by somebody from the provincial 
reconstruction team, you may be more inclined to go to the 
meeting if you think this might mean I can get my bridge built, 
and you are not prepared for a lecture on, ``Well, now you have 
got to go out there and raise the money and come up with a tax 
system.''
    I mean, maybe that is not what you are expecting, but maybe 
it gets more people to your meeting.
    Let's see. Who is next here on our list?
    Mr. Conaway.
    Mr. Conaway. Thank you, Mr. Chairman.
    I was in Jalalabad two weeks ago meeting with the PRT team 
there and got a great brief.
    The conversation for about an hour and a half sounded a lot 
more like a chamber of commerce in Small Town, USA. The thing 
that I couldn't--I asked them a little bit about this, but it 
seemed to be missing, was the link between what the Afghanis 
want and what we think they want.
    The State Department guy walked us through a planning 
process that they had gone through with the team and all the 
good stuff, but there didn't seem to be any link with the local 
populous, local leadership in Jalalabad as to what they thought 
and how they wanted.
    Can you talk to us a little bit of how you make sure that 
we are not doing or coming up with great ideas on behalf of 
people that may not link up with what they think are great 
ideas?
    Mr. Shivers. It is absolutely essential that the PRTs be 
aligned with the local populous. A key role that they are 
playing is contributing to stabilization efforts in their area 
of responsibility through aligning themselves with the local 
populous as a key tool against counterinsurgents.
    So if there is a disconnect, it needs to be corrected.
    My own experience in Jalalabad, sir, I was there probably 
about four months ago, at the PRT, was that there was a great 
sensitivity on the part of the leadership with that subject 
and, indeed, I think we use Jalalabad PRT as a fine example of 
outreach at a wide variety of levels, not only from the center 
locale of the PRT, but the satellite, smaller PRTs that they 
have populated Nangarhar Province with.
    So I am hoping that that is an impression, sir, rather than 
reality. I know there is great sensitivity, especially at that 
PRT, about that need.
    I would also say, just going back to Congressman Akin's 
point, that PRTs, by their nature, are interim organizations. 
They are not meant to be permanent. And the biggest component 
of decisions about standing down a PRT in a place like 
Afghanistan will be based upon security environments.
    So I am imagining that for decades, the need for 
reconstruction, development and everything will continue and 
that outreach to those local officials will be absolutely 
essential.
    Mr. Conaway. I didn't mean to disparage those guys in 
Jalalabad, because I thought they were doing a terrific job.
    Mr. Shivers. Yes, sir.
    Mr. Conaway. Everything was on the list that they wanted to 
do were things that I would have lined up, as well.
    Mr. Shivers. Well, there will always be tension between 
principals and advisors. So to the extent that our PRT members 
are attempting to convince local officials of paths ahead that 
will bear fruit for them in terms of establishing good 
practices and procedures, that will be useful, sir.
    Mr. Conaway. The interesting thing was that some of those 
guys that were at our chamber of commerce meeting had been in a 
four-hour gunfight the morning before.
    Mr. Shivers. Yes, sir.
    Mr. Conaway. So there is an incredible disconnect to have 
them standing there talking about roads, canals and funding and 
all the kinds of things that every chamber of commerce in the 
United States does, to know that the morning before, they were 
wearing a much different hat. I was very proud of our group.
    General Wilkes. Sir, if I could make a comment on that. 
That is the key piece there, that you have got a pretty strong 
counterinsurgency and a lot of the projects that you want done 
and that the local community would want accomplished can't be 
defended.
    So to expend that money on it at that point in time may not 
be the right decision.
    Additionally, the way we tie that together from a national 
level down is we are looking at a ministry of interior 
representative at the PRTs, BCT level, so that we can integrate 
all of that activity up and down the chain here and make sure 
that the Afghans have a voice in what we are doing.
    Mr. Conaway. One other quick one. We talked about 
incentivizing folks to take on these roles.
    On the military side, who evaluates them? Who gives the 
performance reports and all those kinds of things on the folks 
that are serving? Those obviously follow on their entire 
career. How does that work on an individual basis?
    General Wilkes. When we go through the selection process, 
these PRTs are selected. The commander is screened. They have a 
two-month training program before they go over there.
    The team is formed with about 85 or so folks. Largely, I 
would say 70-80 percent of it is National Guard-reserve 
component type folks with expertise in that particular area. 
They volunteer for this mission. They will go over for the full 
year.
    And based upon their backgrounds, the expertise in whatever 
area, we fit that into the PRT. The normal report systems, 
OPRs, EPRs, et cetera, are written at the end of their period 
and all of that is documented for their records.
    Mr. Conaway. And who evaluates the commander?
    General Wilkes. The PRT commander is just like a battalion 
commander within a brigade combat team over there that works 
for CJTF-82, with the CJTF-82 two-star being the final 
authority.
    Mr. Conaway. Let me make one other comment, if I could.
    There was apparently an attempt to put together a National 
Guard group of farmers, by trade, to come over and specifically 
work in Nangarhar. They got waylaid somewhere, General Fallon 
or somebody, and the folks on the ground really wanted farmers 
to come work with--it is an agricultural issue there in 
Nangarhar, obviously.
    So they were very disappointed that----
    Mr. Shivers. Sir, I spoke personally with Admiral Fallon 
about that issue yesterday and he is looking into it.
    Mr. Conaway. It is interesting. The State Department or 
USAID guy was not at the table. He was sitting on the back 
bench and the guys were talking about the need for agricultural 
expertise, not just the guys that knew how to grow stuff, but 
the process, the Ag industry to allow the local economy to grow 
and they needed all this help.
    And then the USAID guy, when he got up, when it was his 
turn to talk, said, ``We don't need anymore Ag guys over here. 
We have got all the Ag expertise we need.'' The 06 turned 
around and said, ``I couldn't disagree with you more. What I 
need are farmers who actually run plows and tractors and 
understand exactly how that works.''
    Mr. Shivers. As you know, sir, agriculture employs about 80 
percent of the Afghan population, directly or indirectly. So it 
is hard to imagine that we would have too much expertise in the 
country.
    Mr. Conaway. I think the issue was they didn't want 
academic guys--what the colonel wanted was those who really 
make their own living doing that.
    Mr. Shivers. As I understand the proposal, sir, it is an 
attempt to identify within the reserve ranks farmers and 
practitioners of agriculture, a variety of things, not only the 
farming itself, but all the vertically integrated industries 
associated with agriculture.
    So my office considers it a very worthwhile effort and we 
are championing it.
    General Wilkes. Sir, I think what you are seeing is you 
have intervened a little bit into our staffing process and this 
is the normal discussion that goes on.
    Our Joint Plans Officer (J-5) is out in Iraq and 
Afghanistan this week and that will be one of the topics that 
he is talking with CJTF-82 and all of the PRTs and Admiral 
Fallon is certainly reengaging.
    Mr. Conaway. Mr. Chairman, appreciate your leniency.
    Dr. Snyder. Mr. Jones.
    Mr. Jones. Mr. Chairman, thank you very much. Gentlemen, 
thank you for being here today.
    I guess, for many of us, to see some success in Afghanistan 
and Iraq and particularly with the PRTs is certainly 
encouraging.
    I wanted to go back to last week we had a State Department, 
and I know there were two colonels, a lieutenant colonel and a 
full bird colonel, and I think this is the point that Mr. Akin 
made or maybe Mr. Snyder.
    The interesting that I observed about the lieutenant 
colonel--and, Mr. Chairman, you or Mr. Akin can correct me, and 
Mr. Conaway, but it seemed that the lieutenant colonel felt 
that if they had the authority and they were working as ones, 
that the program would be even more successful.
    So I guess my point is, as this is evolving and, again, 
there are, I am sure, many, many frustrations which we have 
heard about and many successes, that it does have the potential 
to hopefully bring some peace to that area over the years.
    The funding--I want to make sure I understand this. Mr. 
Shivers, the funding for the PRT program as it relates to the 
Department of Defense, what does that come out of and how much 
would that be?
    Mr. Shivers. A key amount of it is CERP funds, commander's 
emergency reconstruction program.
    Mr. Jones. What is that budget, do you know, approximately?
    General Wilkes. In fiscal year 2007, it was $120 million.
    Mr. Jones. And, Mr. Kimmitt, State's budget?
    General Kimmitt. The gentlemen were referring to the 
numbers for Afghanistan. The numbers in Iraq are substantially 
higher due to the--we had $800 million in 2006, roughly $950 
million in 2007, and we have gone forward to OMB with a 
consolidated request for Afghanistan and Iraq of $1.2 billion 
for fiscal year 2008.
    It has not yet been parsed how much to Afghanistan and how 
much to Iraq. The State Department budget, I think, is roughly 
$50 million this year for the QRF for Iraq.
    So it gives a sense of the difference between the budget 
for the Department of Defense and Department of State with 
regards to the money that we give the team leaders on the 
ground to obligate and to execute.
    Mr. Jones. Mr. Shivers, I think you made in your comments--
and I fully understood the 14th century commerce of Afghanistan 
and I think this is what Mrs. Davis and Mr. Davis both were 
trying to get to, and she articulated her question very well 
about the American people beginning to see the successes.
    And I know that you mentioned, one of you gentlemen, that 
we have to have standards and metrics and that has to be 
developed. You can't have it today, but maybe it will becoming 
tomorrow.
    At what point do you think, in the next year or two--Mr. 
Kimmitt, maybe you should be the one to answer this--that this 
Congress would be able to say to the American people, ``This is 
the standard. This is the success.''
    General Kimmitt. Congressman, I believe you can tell the 
American people now that the PRT programs in both Afghanistan 
and Iraq are a success. They are a success for a number of 
reasons.
    First of all, in the case of Iraq, we have taken a program 
which was nonexistent, there was no doctrinal basis for this 
prior to these operations. We talk about their new 
counterinsurgency strategy that we have developed, but, in 
fact, it was built on old counterinsurgency strategy.
    What General McNeil developed in 2002 in Afghanistan, which 
migrated over to Iraq, is quite revolutionary in terms of doing 
this in war, developing this type of doctrine, developing these 
kind of policies in a very, very short time and to see the 
results that these PRTs are having on the day-to-day lives and 
the provincial councils inside of Iraq, in a very short period 
of time.
    Let's put it in perspective. It has only been two, two and 
a half years since these have been done. And that these brave 
young men and women from the State Department, from our other 
agencies, from the Department of Defense have achieved the 
results that they have achieved to date, I think we can all 
stand in great appreciation and with legitimate comments about 
the success that has been made to this point.
    I think you just have to go to a PRT to see what they are 
doing, whether it is in Panjshir, Nangarhar, Jalalabad, Bavil, 
anywhere and you will see it.
    And I think all of us recognize there is still much work to 
be done in terms of developing the long-term doctrine for the 
next conflict, for the next operation, but so much has already 
been done to this point that we ought to stand in gratitude for 
what has been accomplished up to this point.
    Mr. Jones. Mr. Shivers, do you want to finish?
    Mr. Shivers. Yes, sir. I mentioned before that the PRT, by 
its nature, is an interim organization. It is also a joint 
organization, as we well know. It is military and civilian. And 
the key metric in Afghanistan is really the security 
environment that the PRT operates in, because that will allow 
it to stand down.
    As security is increased and it becomes a permissive 
environment, then the activities that are conducted by the 
Department of State, the USAID and Department of Agriculture 
and any other civilian experts, engineers, will migrate over 
into more traditional forms.
    So I believe that the security environment is the key 
metric for PRTs and proving them successful. That is why the 
military has such a prominent role, because they are so 
critical to the environment needed to transition to normal 
forms.
    Mr. Jones. Thank you, Mr. Chairman.
    Dr. Snyder. We will go to a second round. We will begin 
with Mr. Akin and then to myself, and then Mr. Conaway and Mr. 
Jones, if anyone has additional questions.
    Mr. Akin, for five minutes.
    Mr. Akin. Just a thought. First of all, as you talk about 
PRTs, it seems to me, if you have got a bunch of special 
operators sitting somewhere and they have got a mission, they 
take off of a shelf the different equipment that they need and 
they select the people they want to do a particular mission, it 
would seem to me that PRTs could be--you know, we could build 
on what we have done in Iraq and Afghanistan.
    Obviously, you shape it depending on your mission and the 
nature of where you are working. If it is something where you 
need tremendous military security as opposed to you need a 
whole lot of farmers, you pick the tools that you need you put 
the team together and make it work.
    It seemed to me that, at least on the surface, particularly 
when there is a military component, that maybe that could be a 
part of something the military does. You have people already 
identified, that if we get into this kind of thing, we are 
going to pull these people, just like the special forces guy 
pulls a parachute if he is going to jump out of a plane or 
whatever.
    I guess the other question that we have been thinking about 
was taking what is going on in the local community, on the 
ground, and taking it much more to the macro level when you 
first go into a place like Afghanistan, into Iraq.
    As we look back and kind of think what happened, a lot of 
us have a sense that the military was doing a good enough job 
maybe, but that there wasn't--that the State piece wasn't 
coordinated that well with the military.
    All of a sudden, Bremer says, ``If you are a member of the 
original leadership, they are all going to be disbanded.'' We 
didn't get the sense that--and the military had a plan that 
said, ``Well, we are going to use middle management to stand up 
an army over there and the State Department has just said the 
army has just been dismissed.''
    So it didn't seem like the right hand knew what the left 
hand was doing at the sort of higher level.
    Now, that may be a totally different situation and 
requiring jointness in terms of how we manage those operations 
from a PRT, but it seems like kind of similar to a PRT, just at 
a higher kind of level.
    Do you want to comment on that? And do you see a 
parallelism or do you think a PRT is just sort of a totally 
separate entity and could be treated differently?
    General Kimmitt. Well, sir, in the case of Iraq, I think 
you bring up a very good point, which is this notion of working 
as an interagency team can't simply be done at a PRT. It has to 
be part of the entire campaign.
    And when one pulls back and talks to our coalition 
partners, they are in awe of the way that our interagency 
works, whether it is here in Washington, D.C., whether it is in 
the joint interagency coordination groups that we are 
developing in our component commands, or whether it is the 
great coordination that we see right now between Ambassador 
Haliza and between Ambassador Crocker and General Petraeus.
    And that notion that this fight that we are in in Iraq is 
far more than simply a military operation, I mean, we have all 
watched Ken Burns over the last couple of days, and the war was 
seen to be--I am not sure I saw a civilian in that entire 
series.
    It was all about military bringing force of arms to defeat 
two dictatorships, but that is not what we are seeing on the 
ground and many would say that the wave of the future is we 
must have a capacity to address not simply the military, but 
the nonmilitary aspects of what is going on.
    We used to talk about the war on terrorism being about 90 
percent nonmilitary, 10 percent military, and I think there is 
certainly a generation of young foreign service officers, 
lieutenants, young captains on the ground now that see this as 
a way of life.
    They have not fought a war where they have not had a State 
Department person by their side, and that is going to continue 
to work itself up as they become older and take on more and 
more prominence.
    So at least I think on this side of the table, and I would 
be surprised if it was not throughout the table, all of us 
understand that particularly in the types of operations that we 
see in Afghanistan and Iraq, but have also seen in Kosovo and 
Bosnia, that most of the tasks that need to be done on a day-
to-day basis are what we call non-kinetic, nonmilitary, and all 
of us, I believe, are certainly in this direction.
    As Ms. Davis talked about earlier, in the wake of 
Goldwater-Nichols, resulting from some of the interagency 
problems and the inter-service problems that we had during 
Grenada, in this discussion, in many ways, you are preaching at 
the converted.
    Mr. Akin. So you are saying it is a continuous fabric from 
the top levels down just to the local guys and the PRT on the 
street, that it has to be a coordinated kind of effort.
    General Kimmitt. Well, I suspect there is some old 
irredentists out there that believe that you don't need the 
State Department when you go into these types of operations or 
you don't need the military, but the ranks of those 
irredentists I think are getting smaller and smaller every day.
    Mr. Akin. Thank you. Thank you, Mr. Chairman.
    Dr. Snyder. Well, Mr. Kimmitt, I hate to take part of my 
five minutes, but I don't know what the word ``irredentist'' 
means nor how to spell it.
    General Kimmitt. What it means, Mr. Chairman, is somebody 
who doesn't sort of want to look to the future. They want to 
hold onto old concepts that don't square with the reality on 
the ground.
    Dr. Snyder. Traditions.
    General Kimmitt. Many cases.
    Dr. Snyder. Traditions that no longer work.
    I wanted to ask--by the way, I will put in a plug. I float 
this idea out there about once every six months, but it relates 
to some of the things you are saying, Mr. Kimmitt, in terms of 
how war has changed and contrasting with what has been going 
on, the focus on World War II through the Ken Burns' films.
    But we may be better ahead as a country if we made foreign 
language training part of boot camp and assigned a foreign 
language to every person that comes in the military to say, 
``You are going to be the Farsi guy, you are going to be the 
Arabic guy,'' just do it by platoon.
    So just from the very get-go, people would recognize that 
they are going to have more expected of them than just the 
ability to fire weapons or do air traffic control or something.
    I wanted to ask, in terms of--because we are looking ahead 
in terms of a security transfer. The violence seems to be 
coming down somewhat in Iraq and sometime, six months, eight 
months, 12 months, you are going to have areas that you are 
going to want to transfer security over to Iraqi control.
    What happens to the American-led PRTs in that situation? 
Are we still going to have military units going in with our Ag 
advisors and our foreign service officers?
    Do you have a plan on how that is going to work? Colonel 
Baker or Mr. Kimmitt?
    General Kimmitt. Yes, sir. General Odierno was back here 
the last few days and that point was brought up, as well. As 
part of the testimony from Ambassador Crocker and General 
Petraeus, there were orders given down through the chain of 
command to reform their campaign plan.
    This is one of those issues that they are grappling with. 
But there is a model already on the ground and that is what has 
happened in the south and what the British have done with their 
provinces is they have handed three of the four provinces over 
to provincial Iraqi control.
    That is where we have the PSTs or what some would call the 
satellite PRTs. For example, in Muthanna, the PRT run by an 
Italian, Anna Prouse, out of Tallil, their satellite PSTs will 
go out to Muthanna and continue to work with them.
    The security conditions are such that depending on the 
level of threat, that team will either have contractor support, 
perhaps Iraqi security force support, but as long as there is a 
need in that province for additional support with governance, 
then it is my estimate that the commanders will come back and 
say, ``Even though we have handed over security control for the 
region, there is still need for more good governance 
procedures.'' So we are going to continue to support either 
through a satellite PST or various other ways.
    Dr. Snyder. So, Mr. Shivers, in Afghanistan, you said the 
basic component of a PRT there was 85 military, three American 
civilians, 85 American military and five Afghans, that you 
could envision 18 months from now having an area of Afghanistan 
where security is maintained by the Afghan national army, but 
there would still be a contingent of 85 U.S. military and three 
U.S. civilians and five Afghans going out as a unit in that 
area to provide security for that group.
    Is that a fair statement or do you think that would be a 
work in progress that will evolve?
    Mr. Shivers. Of course, we are looking forward to the day, 
sir, when we can stand down some PRTs. So depending upon the 
actual security conditions on the ground, we maybe able to do 
that and we may be able to turn it over to ANSF forces and have 
a permissive environment where U.S. military presence isn't 
needed in that particular location.
    Let me stress that I suspect that the civilian components 
of that PRT would then go over into more traditional avenues of 
assistance delivery.
    So that we will continue probably to have officials in 
Afghanistan's provinces for many years to come, from the State 
Department, USDA, AID.
    Dr. Snyder. Then as Mr. Kimmitt said, may have contract 
security or some security would be just part of the function 
that you all would work out, depending on the area.
    Colonel Baker has something he wanted to say.
    Colonel Baker. I would just say, Mr. Chairman, that as part 
of the POTUS' direction to Ambassador Crocker and General 
Petraeus to revise the campaign plan, that issue, among others, 
are being looked at and they are looking at PRT team locations, 
they are looking at size of PRT teams, will they need to grow 
larger in terms of their skill sets and components.
    I think it is fair to say that the mission of the PRT team, 
although it is designed as a temporary organization, in a 
perfect world, they will do less and less every day because the 
capacity will improve in the provinces to govern themselves, 
that their mission will endure longer than the security 
mission, if trends continue to stay as they are and levels of 
violence go down.
    But it will be a joint decision between embassy and MNFI in 
terms of the level and duration and sizes of the security 
component that has to accompany the PRTs. Until such time the 
environment is semi-permissive or permissive, you are going to 
still see MNFI maintain responsibilities to ensure that those 
teams can conduct those important missions they do.
    But we have to wait to see how they--what the decisions are 
based on their analysis that they are going through right now.
    We talk about this fairly often in our Iraq steering group 
that Mr. Kimmitt and I attend with our interagency colleagues 
and are very well aware of the USAID and State concerns and 
have been working with MNFI on this issue preceding the 
President's guidance to re-look at the campaign plan.
    Dr. Snyder. One of the frustrations expressed by several of 
the members of the PRTs we met with privately were that they 
got frustrated early on that security was not available. They 
did not have the ability to move around. They can't do anything 
without moving around their area geographically and they mean 
going out on roads and going to meet with people.
    So as violence comes down, we know it will at some point, 
we want to be sure that they wouldn't go through that same 
frustration again of the security not being available if they 
still thought they had things to do.
    Mr. Akin. Just piggybacking on what you said, the one thing 
that one of the PRT teams said, they said you have died and 
gone to heaven is what it feels like when you have got 
dedicated people that are there to move you around.
    When they had dedicated----
    Dr. Snyder. Uniformed military people.
    Mr. Akin [continuing]. Uniformed people, that that was 
their sole mission was to help the PRT teams, they said that 
was when, ``Boy, we really could get some stuff done when that 
was dedicated, that resource was dedicated.''
    Dr. Snyder. I think they were saying as opposed to early 
on, some in the military thought they were kind of like an 
afterthought mission, but once they all got on the same page, 
like the CNO saying, ``What you all are doing is really 
important'' and word gets around, then they say things really 
started to click for them.
    General Kimmitt. Chairman, if I could, that was one of the 
major elements of the embedded PRTs. We have a signed 
memorandum of agreement between our deputy secretary of defense 
and the deputy secretary of state that laid out in these new 
EPRTs those specific issues, which is the value of embedding 
them into military units and be seen.
    I would suspect that the PRTs you are referring to are the 
older PRTs that were separate from the military units. What we 
have learned is exactly as you have said--more work can be 
done, collocated, living, eating, working together, and that is 
one of the lessons that we are learning as we are developing 
the doctrine, the emerging doctrine for PRTs, which will 
probably be with us in many ways, perhaps in different forms, 
from these point forward in operations that we will be 
conducting.
    Dr. Snyder. Mr. Conaway, we haven't forgotten about you. 
The technician accidentally pulled the plug here on the light. 
That is why it went out.
    So Mr. Conaway, for five minutes.
    Mr. Conaway. Yes, last thing. Are there any legislative 
issues that need to be addressed that can make these things 
work better, barriers, laws or things that we can start chewing 
on that would, if implemented or gotten out of your way, make 
this initiative more successful?
    Dr. Snyder. Why don't we go right down the line? I would 
like to hear from each person. I had that question on my list, 
too.
    Mr. Shivers. No, sir. I am not aware of any required 
legislative remedies.
    General Wilkes. No, sir, I am not either.
    General Kimmitt. There has been a desire, and I believe 
there has been some proposed legislation on this notion of a 
civilian reserve corps.
    One of the hard parts for DOD or the military to understand 
is that the State Department does not have courses in waiting. 
It is easy for us to--not easy, but the military has been 
designed so that there are forces standing by ready to deploy 
when the Nation calls.
    If one takes a look at the State Department, it is a zero 
sum game. They don't have State Department officials sitting at 
Fort Bragg, North Carolina and training at Peason Ridge in 
Louisiana, just waiting for when the Nation calls.
    But this notion that there be a civilian reserve capacity, 
whether in being or in reserve, to draw upon I know would be 
something that our policy people, such as our stability 
operations and some of the people over at the State Department, 
would be advocating for, to develop capacity so that it is not 
a zero sum game within the State Department to double the size 
of the Iraqi embassy in times of crisis or a future embassy in 
times of crisis has to be taken away from another organization, 
because those other organizations suffer as a result.
    So to develop that type of capacity and, frankly, a State 
Department budget that reflects how important the State 
Department role is in the conduct of conflict in the future I 
think would be the two areas that we would ask the committee to 
consider.
    Colonel Baker. Mr. Chairman, I would echo what Mr. Kimmitt 
just said about the reserve civilian corps. The joint staff 
thinks that is a very important capacity that we think State 
Department needs.
    We all realize that this is not an aberration. This is 
really an insight into what the future is going to look like in 
terms of how we pursue national security interests around the 
world.
    I would just like to say that continued funding for the 
CERP programs and for the QRF, the new QRF program that the PRT 
teams use now to support their activities is important and we 
would ask that you continue to support that.
    Mr. Conaway. Quick response fund.
    Colonel Baker. Quick response fund, sir.
    Mr. Conaway. We sometime use the same acronyms.
    Colonel Baker. Yes, sir. Yes, sir. The quick response fund 
is very similar to the CERP program. It is refreshingly known 
as State CERP.
    Dr. Snyder. Anything else, Mr. Conaway?
    I wanted to ask, Mr. Kimmitt, you mentioned the adequate 
funding for the State Department, which I think has been a 
concern for some time. But some of us met privately with a 
foreign service officer within the last couple of days who took 
great offense at some of what he thought were misunderstandings 
and misdepictions in the press that somehow the State 
Department had fallen down.
    And he felt that of the foreign service officer slots that 
were needed on the PRTs, that 100 percent had been filled 
appropriately, that, in fact, it was other agencies.
    Now, we got into some disputes about that and discussions 
about, yes, but the State Department is supposed to take the 
lead in getting these other civilian slots.
    You talk about adequate funding for the State Department, 
which I agree with you on. There probably needs to be some 
redundancy built into the system so that you could pull--we 
need to pull one or two veterinarians from Africa or China, 
wherever, but have some redundancy built in so the whole 
operation doesn't fall apart.
    But that is going to have to be--veterinarians are probably 
not State Department employees. They are probably Department of 
Ag employees or USAID employees. You have got certainly 
Department of Justice issues----
    We are going to need to look at redundancy and adequate 
funding all across the spectrum of government services, are we 
not?
    General Kimmitt. I couldn't agree more, Mr. Chairman. 
Department of Treasury, for example, the work that they are 
doing with regards to setting up the system inside the treasury 
system and the distribution of funds inside of Iraq.
    Department of Justice, the Rule of Law Task Force, the 
significant amount of work that is being done with the Rule of 
Law Task Force, whether the entire spectrum of legal issues 
that involve these types of operations.
    Dr. Snyder. All the agencies that are involved in these. As 
you said, we are gaining experience with these PRTs, what 
functions are there, that we may need to build some redundancy 
in the civilian side of government to deal with these 
international events and have that be part of somebody's job 
description.
    You are going to be assigned to Washington, D.C., but you 
may be called to Bosnia or Afghanistan.
    General Kimmitt. I am hard pressed to think of any agency 
in the Federal Government that couldn't add value to the types 
of operations we are seeing in Iraq and I suspect in 
Afghanistan, as well.
    Dr. Snyder. Now, a couple of you, in your written 
statements, and you mentioned just a minute ago, Mr. Kimmitt, 
mentioned the idea of civilian reserve.
    I don't have a sense of how that would work beyond the two 
words put together in your statements. Are you talking about 
this being something totally new? Are you talking about this 
being as part of a National Guard function or U.S. Army Reserve 
function, like civil affairs?
    When you say that, what are you saying exactly?
    General Kimmitt. Well, Mr. Chairman, perhaps it would be 
helpful at a separate time, when we could have the experts on 
this come and give you a briefing on the notion of the civilian 
reserve corps, because it would be--it is our view that it 
would be truly that, a civilian reserve corps, not one to be--
some people may also be in the National Guard, some people also 
may be working for the Department of Defense.
    But it is a very exciting policy proposal that is 
germinating from both State Department and from the Department 
of Defense.
    Dr. Snyder. Well, that is a fair statement. I have seen 
more of the concept I guess than anything that has really been 
hammered out.
    We had experiences in Arkansas when the 39th was 
activated--well, different guard units have been activated 
where--I remember one of those lieutenant colonels in charge of 
one of the units was also a city mayor.
    Well, his mayoral experience was probably as important as 
his military experience.
    We had a police chief that was activated and that ability 
to organize a police department became important, too.
    Laura, did any of the staff have any questions that you all 
think we didn't get to? Everybody okay?
    Mr. Akin, do you have any further questions?
    Mr. Akin. No, I don't, but I very much appreciate your 
thoughts and it seems to me one of the most exciting positive 
developments of this last number of years.
    Dr. Snyder. Mrs. Davis, did you have any further questions?
    Ms. Davis of California. I am sure that you covered all the 
ground. But maybe just really quickly, what do you see as the 
greatest obstacle to saying that we are in a very different 
place five years from now in terms of the way we look at this 
interagency work that is being done through PRTs and just 
generally?
    Mr. Shivers. I think it is very easy to underestimate the 
difficulty of trying to create the conditions conducive to 
stability in a country like Afghanistan. It is really a place 
that was, as you well know, totally devastated by decades of 
destruction and mayhem.
    And it requires an expeditionary nature on our part. It 
requires a tremendous amount of coordination with allies. In a 
place like Afghanistan, we have 72 nations and international 
official institutions operating.
    And in Afghanistan, we pursue PRT initiatives through ISAF, 
through a NATO command. So we have our own PRTs, but 
importantly, we have those of the allied command structure.
    So I think we have underestimated the complexity. It 
requires a total government effort and a total mobilization to 
be successful and even at that, it will take many more years 
than we would care.
    Ms. Davis of California. Are you optimistic that we have 
the wherewithal to do this?
    Mr. Shivers. I am optimistic in the outcome, I really am. I 
think the issue for us is whether we are going to go through 
more pain than we need to and whether it will take a prolonged 
period of time to achieve that success.
    But I am absolutely--I believe the Afghan cause is worthy 
and the people deserve our support. I think they are rooting 
for us, which is an important element. They would really like 
to see the international coalition succeed.
    So I am optimistic, but I think it is a long, hard slog out 
there.
    General Wilkes. I would say that keeping our will and focus 
on this is going to be the key issue that we have got to face. 
It is definitely a worthy goal. I think the Afghanistan want us 
to succeed.
    They are putting their backbone into it. We are developing 
people skills, lawyers from the get-go, justice systems from 
the get-go, commerce, roads and things like that. It is a very 
tough thing. It is a long process.
    So to keep our will and focus is going to be hard.
    General Kimmitt. Congresswoman, I think your question also 
asked the future of interagency coordination.
    I remain enormously optimistic primarily because of the 
goodwill that I see not only at the highest level, but the 
goodwill that is amongst the individuals working together in 
some very, very difficult situations.
    They understand what they are doing on the ground. These 
PRTs see the effects of what they produce and they also 
understand the risks that are involved, but yet they still 
continue to volunteer and they still continue to do brilliantly 
on the battlefield.
    Along with the points that were made here, I think one of 
the major obstacles, to no one's surprise, will be that of 
resourcing over time and making sure that not simply the 
Department of Defense has a robust budget, but also the other 
agencies have the resources, whether it is in terms of the size 
of their organizations, the resources that they are given by 
the taxpayers of the United States, and, to some extent, the 
legislative capability so that they can go out and participate 
in these operations side by side and understand that they are 
able to do their job, whether they are Department of State, 
Treasury, Labor, Agriculture, with the same authorities, 
capabilities and resources that are given to the troops on the 
ground, as well.
    Ms. Davis of California. Is it fair to look to the military 
to try and make the argument that those agencies should be 
funded, certainly not equally, but that they should be funded 
better?
    Is there a way that you think that it is appropriate to do 
that?
    General Kimmitt. My secretary has sat in front of 
committees and has made that argument and I think we will all 
continue to make that argument that the best probability of 
success in interagency operations will come about when all the 
agencies that are participating in the operations have the 
people, the funding and the authorities they need to cooperate 
and synchronize operations on the ground, along with the 
Department of Defense.
    I certainly know that that is the administration position 
and I certainly know that that is the Department of Defense 
position.
    Dr. Snyder. General Wilkes, your comment about focus and 
will, I think that is an important statement. Focus and will 
are measured by resources and I am not sure that we are 
adequately resourcing the Afghan campaign the way we ought to 
and the responsibility of this committee.
    I am pointing the finger not at you, but at us.
    Thank you, gentlemen, for being here. I want you all to 
feel free, if anything comes to mind, that you want to amplify 
on any answer, feel free to submit any kind of answers or 
written statements. We will pass it out to committee members 
and append to the record.
    The hearing is adjourned.
    [Whereupon, at 10:45 a.m., the subcommittee was adjourned.]
     
=======================================================================

                            A P P E N D I X

                            October 4, 2007

=======================================================================

              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                            October 4, 2007

=======================================================================

      
      
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
      
=======================================================================

             QUESTIONS AND ANSWERS SUBMITTED FOR THE RECORD

                            October 4, 2007

=======================================================================
     
                   QUESTIONS SUBMITTED BY DR. SNYDER

    Dr. Snyder. Now, a couple of you, in your written statements, and 
you mentioned just a minute ago, Mr. Kimmitt, mentioned the idea of 
civilian reserve.
    I don't have a sense of how that would work beyond the two words 
put together in your statements. Are you talking about this being 
something totally new? Are you talking about this being as part of a 
National Guard function or U.S. Army Reserve function, like civil 
affairs?
    When you say that, what are you saying exactly?
    General Kimmitt. Ambassador John Herbst, Coordinator for 
Reconstruction and Stabilization, U.S. Department of State, and Ms. 
Celeste Ward, Deputy Assistant Secretary of Defense for Stability 
Operations Capabilities briefed the committee on October 18, 2007.
    Dr. Snyder. How does the work of the PRTs in Afghanistan support 
larger campaign plans and strategies? What measurable gains toward 
fulfillment of the overall strategies/campaign objectives have been 
made as the result of the PRT program?
    Mr. Shivers. Provincial Reconstruction Teams (PRTs) support most of 
the objectives of the Afghan National Development Strategy (ANDS), the 
overarching strategic guidance document for reconstruction efforts in 
Afghanistan. PRTs operationalize the ANDS, assisting the Afghan 
government extend its authority to the regions. This helps facilitate 
the development of a stable and secure environment and enable security 
sector reform and reconstruction efforts. Each PRT acts as a focal 
point for coordinating much of the reconstruction efforts in the 
provinces, provide training and mentoring to Afghan officials, and help 
execute projects so that Afghan people are able to see positive 
developments in their lives, thereby increasing their confidence and 
trust in the government. The NATO-led International Security Assistance 
Force (ISAF), under whose direction all PRTs fall, has published data 
(attached) that offers an overview of the scope and type of 
reconstruction and development work that PRTs have accomplished. While 
the ISAF data remains an evolving product, it has captured a 
significant portion of the impact PRTs have made in the country.
    Dr. Snyder. Describe who in DOD is involved in the planning 
processes for PRTs? How is the planning overseen? How is execution and 
implementation measured and overseen? Who approves the PRT work plans 
and monitors progress against the work plans? How are PRTs (and PRT 
members) held accountable for the fulfillment of their work plans?
    Mr. Shivers. Commander, Joint Task Force (CJTF) 82, Major General 
Rodriguez, commands the 12 U.S.-led Provincial Reconstruction Teams 
(PRTs) in Afghanistan. Individual PRTs are under the command of a 
Brigade Combat Team (BCT) commander, who in turn reports to CJTF-82. 
The BCT commander approves PRT plans and is responsible for the 
execution of counter-insurgency (COIN) efforts in his area of 
responsibility. CJTF-82 operates under the direction of the NATO-led 
International Security Assistance Force (ISAF). CJTF-82, ISAF, and the 
U.S. Embassy in Kabul work closely on PRT planning in order to ensure 
synchronization of efforts. Finally, the Afghan government and the 
international community meet regularly in two forums in Kabul--the PRT 
Executive Steering Committee and the PRT Working Group--to further 
coordinate PRT efforts and apply lessons learned.
    Dr. Snyder. Witnesses stated they believed PRTs would be with us 
for some time. What is the DOD military personnel policy, and derived 
Service personnel policies, guiding the force structure planning, 
training, and education skill sets for PRTs and PRT-like missions (SSTR 
operations)? What is the DOD civilian personnel policy on coding 
civilian positions as deployable for both GS and WG employees? Do these 
policies account for deployment to war zones rather than secure 
locations?
    Mr. Shivers. Provincial Reconstruction Teams (PRTs) were 
established as a result of the need to develop the infrastructure 
necessary for the Afghan and Iraqi people to succeed in the post-
conflict environment. A PRT is an interim civil-military organization 
designed to operate in semi-permissive environments usually following 
open hostilities but can be used before, during and after hostilities 
if necessary. PRTs do not require new force structure but they do 
require additional training and education of the PRT units and members 
to inform them of the environment in which they are to operate.
    DoD is granted statutory authority under 10 U.S.C. 1508(a), to 
designate positions that meet the following three criteria as 
``Emergency Essential''. The following criteria apply to all DoD 
appropriated and non-appropriated fund positions, whether they are 
general schedule (GS) or working grade (WG).
    1. The duties of the position provide immediate and continuing 
support for combat operations or are to support maintenance and repair 
of combat essential systems of the armed forces;
    2. The employee must perform those duties in a combat zone after 
the evacuation of non-essential personnel (including any dependents of 
members of the armed forces) from the combat zone in connection with a 
war, a national emergency declared by Congress or the President, or the 
commencement of combat operations of the armed forces in the zone; and
    3. It is impracticable to convert the employee's position to a 
position authorized to be filled by a member of the armed forces 
because of a necessity for that duty to be performed without 
interruption.
    DoD Directive 1404.10 (``Emergency Essential (E-E) DoD U.S. Citizen 
Civilian Employees'') requires positions that meet the provisions of 10 
U.S.C. 1580 to be designated as emergency essential, and requires 
documentation of the designation within the position descriptions for 
the positions. The directive further requires emergency essential 
positions to be coded in automated civilian personnel records and 
reported quarterly to the Defense Manpower Data Center (DMDC).
    The authority provided under 10 U.S.C. 1580 and the DoD 
implementing policy under DoD 1404.10 accounts for deployment of 
civilian employees to combat zones. However, the Department deploys DoD 
civilians to support combat, contingency and emergency operations 
throughout the world, whether or not their positions are designated as 
emergency essential. Such employees generally are employee volunteers 
and typically serve in a temporary duty (TDY) status.
    Dr. Snyder. How is the PRT experience in Afghanistan informing 
DOD's work in developing stability operations capabilities under DOD 
Directive 3000.05, ``Military Support for Stability, Security, 
Transition, and Reconstruction,'' which gives stability operations 
priority comparable to combat operations?
    Mr. Shivers. Provincial Reconstruction Teams (PRTs) in Afghanistan 
and Iraq are a key civil-military adaptation the Department is 
examining in its implementation of DoD Directive 3000.05 and its 
support to the State Department-led effort to implement National 
Security Presidential Directive (NSPD)-44, ``Management of Interagency 
Efforts Concerning Reconstruction & Stabilization'', across the U.S. 
Government.
    Both DoDD 3000.05 and NSPD-44 focus on improving civil-military 
integration. PRTs serve as a critical model for integrating the 
programs of many U.S. agencies and working with local populations to 
meet immediate needs and build their capacity. DoD aims to take the 
lessons learned from PRTs in order to build even more effective civil-
military teams that can respond to a variety of contingencies in the 
future.
    A key step in improving civil-military coordination is to define 
appropriate roles for USG agencies and derive from that the 
capabilities required to fill those responsibilities. DoD has found 
that the available pool of capable, experienced civilians from which to 
draw has been very limited. Experiences with PRTs in Iraq and 
Afghanistan have underscored the importance of civilian expertise in 
stability operations and the supporting role that the military plays in 
such missions. DoD is developing its capabilities with a support role 
in mind while recognizing that the military may be required to perform 
certain missions if increases in current civilian capacity are not 
realized.
    Dr. Snyder. Is there an overall PRT coordinator within DOD to 
interface with the State Department and other agencies? Should there 
be? Who attends the PCC meetings on PRTs for DOD?
    Mr. Shivers. The Under Secretary of Defense for Policy (USD-P), the 
Deputy Under Secretary of Defense (DUSD) for Personnel and Readiness 
(P&R), and the Joint Chiefs of Staff (JCS) Manning and Personnel 
Directorate (J1), and the Strategic Plans and Policy Directorate (J5) 
are the main offices that coordinate policy, training and manning 
issues for Provisional Reconstruction Teams (PRTs) within DoD.
    PRTs in Iraq and Afghanistan embody very different operational 
constructs and missions, therefore an overall lead within the policy 
offices (OSD Policy and J5) depend on the region. The principal 
coordinator for PRTs in Afghanistan is the Principal Deputy Assistant 
Secretary of Defense (PDASD) for Asian and Pacific Security Affairs 
(APSA). PCC meetings on PRTs in Afghanistan are attended by the Deputy 
Assistant Secretary of Defense (DASD) for Central Asian Affairs, who 
reports to the PDASD (APSA).
    The Assistant Secretary of Defense (ASD) for Special Operations and 
Low Intensity Conflict (SO/LIC) DASD for Stability Operations 
Capabilities leads the development of future PRT-like concepts of 
civil-military teaming.
    This arrangement allows different offices to apply their given 
expertise (country-specific, future concepts, training and manning) for 
PRTs.
    Dr. Snyder. Does DOD need more civil affairs teams? Please describe 
the difference between the civil affairs mission/operations and the PRT 
mission/operations.
    Mr. Shivers. Most U.S. Provisional Reconstruction Teams (PRTs) in 
Afghanistan are staffed with two (2) Civil Affairs teams, consisting of 
approximately eight (8) personnel. The missions and operations of these 
Civil Affairs teams should not be viewed as distinct from the broader 
missions and operations of the PRT. Instead, Civil Affairs teams are 
enablers for PRTs: they focus on military planning, execution, and 
resource allocation in support of civil actions tailored to the 
counter-insurgency environment, as delineated by the PRT's integrated 
command group (PRT Commander, and the State, USAID, and USDA 
representatives).
    Dr. Snyder. We have been hearing a lot about how PRTs are 
attempting to improve the security situation on the ground, and that in 
Afghanistan, security is the key metric of success for PRTs, but what 
about the reconstruction aspect of PRTs? It seems some PRTs are not 
engaged in much--if any--reconstruction, but are rather being used as 
an extension of U.S. military operations separate from the ISAF effort. 
How much of the PRTs work is focused on actual reconstruction?
    Mr. Shivers. Provisional Reconstruction Teams (PRTs) play an 
important role in reconstruction efforts in Afghanistan. The attached 
data, made available by NATO ISAF, demonstrates the scope of 
reconstruction and development activities undertaken by PRTs.
    A critical component of the Department of Defense efforts in 
Afghanistan reconstruction is made possible through the Commanders 
Emergency Response Program (CERP). Targeted at quick response 
humanitarian needs, CERP funds enable local commanders to execute 
projects that can directly impact the lives of local Afghans.
    In FY 2006 and FY 2007, DoD obligated approximately $200 million 
per year in CERP funds within Afghanistan. PRTs have become recognized 
sources for coordinating high payback CERP projects. The theater 
standard operating procedures recognizes the benefits of a joint U.S. 
effort. Working with the PRTs, local commanders have been able to focus 
CERP projects to complement PRT projects in addressing humanitarian 
needs in Afghanistan.
    Dr. Snyder. How does the work of the PRTs in Afghanistan support 
larger campaign plans and strategies? What measurable gains toward 
fulfillment of the overall strategies/campaign objectives have been 
made as the result of the PRT program?
    General Wilkes. The PRTs in Afghanistan are focused on facilitating 
the Afghan Government's ability to realize the goals and objectives of 
the Afghan National Development Strategy (ANDS), and defeating the 
insurgency. The ANDS is the Afghan master plan for security, 
governance, economic growth, and poverty reduction. It was developed by 
the Afghan government in close coordination with the international 
community to drive governance reform, development, and bring security 
to the people of Afghanistan. Officials in the PRTs help the provinces 
support this national plan through coordination, mentoring provincial 
officials, facilitating the processes to support the strategy (working 
with Provincial Councils to develop Provincial Development Plans), and 
allocating funding/projects to support ANDS-supported programs. All 
PRTs fall under ISAF and are managed by the PRT Executive Steering 
Committee (ESC) for policy and coordinated actions. The PRTs are 
vehicle for sub-national deployment of counter-insurgency initiatives 
and actions for ISAF. Their primary counter-insurgency role is to 
connect the Government of the Islamic Republic of Afghanistan (GIRoA) 
to the people and transform the environment. US PRTs support US policy 
guidance by operating under the command and control of CJTF-82, the US 
ISAF command, and in close coordination with Embassy Kabul through the 
Dept. of State and USAID reps.

Measurable Gains

    In 2001, 8 percent of Afghans had access to some form of 
healthcare; now with over 670 hospitals and clinics built and 
outfitted, more than 80 percent of the population has access to medical 
care. Almost 11,000 doctors, midwives, and nurses have been trained. In 
2001, when we went into Afghanistan and liberated it from the Taliban 
and al Qaeda, only some 900,000 children were enrolled in school. Today 
there are more than 5 million students in that country. More than 1.5 
million of them are girls. We know the exact number of girls were in 
school in 2001 because that number was Zero. PRTs built and/or 
coordinated the construction for many of these clinics, schools, and 
supporting facilities.
    Since 2001, there's been a 24 percent decline in mortality rates 
for infants and children under 5, saving 85,000 young lives every year; 
More than 70 percent of the population--including 7 million children--
have been inoculated against polio as opposed to just 35 percent 2 
years ago. PRTs coordinate this type of activity at the Provincial 
level.
    And the progress we have made cuts across all fields. In 2001, 
there was no formal banking system. Today there is a functioning 
Central Bank with more than 30 regional branches and a single, 
internationally traded currency. Afghan economic growth hovers between 
12 and 14 percent per year, outstripping even India. The PRTs helped 
fuel the growth in the Afghan services industry. Before, the dominate 
source of income was agriculture. The service industry now accounts for 
42% of the licit GDP. Income per capita has nearly doubled to $355, 
compared to $180 three years ago.
    And modernity, absent for decades, is returning to Afghanistan. 
There are now three mobile telephone companies serving over 3.5 million 
subscribers--almost 11 percent of the population. The PRTs facilitated 
the infrastructure development to support this Telecom boom.
    In 2001, there were 50 kilometers of paved roadway; now, more than 
7,400 kilometers of roads have been built and paved, with 1600 more 
kilometers due to be completed this year. A new bridge between 
Tajikistan and Afghanistan opened recently, creating new opportunities 
for regional trade and commerce. PRTs coordinated the execution of the 
US-led national roads program at the provincial level, and continue to 
develop the provincial and district roads that flow from the national 
road program development.
    Dr. Snyder. Describe who in DOD is involved in the planning 
processes for PRTs? How is the planning overseen? How is execution and 
implementation measured and overseen? Who approves the PRT work plans 
and monitors progress against the work plans? How are PRTs (and PRT 
members) held accountable for the fulfillment of their work plans?
    General Wilkes. In Afghanistan the 12 US PRTs are under the command 
of CJTF-82, commanded by Major General Rodriguez. Each of the PRTs 
falls under the direct command, control and supervision of a BCT 
commander (O-6 level command). The BCT has a civil-military planning 
cell on the staff that communicates with the CJTF-82 civil-military 
staff section, the CJ9. The CJ9 works in close coordination with the 
ISAF CJ9 and the US Embassy Country team to leverage the interagency 
expertise and synchronize the US Government and ISAF efforts in 
Afghanistan. This ensures the governance and development lines of 
operation are coordinated, properly resourced, and support US policy. 
The security line of operation for the PRT is also synchronized, 
coordinated and resourced first at the BCT-level. The BCT supports the 
plans and directives of CJTF-82, and CJTF-82 operates under the 
direction of COM ISAF.
    Execution and implementation are measured and overseen by the same 
command and control structure responsible for planning. The PRT's work 
plans are approved and monitored by the BCT Commanders. The BCT 
commanders are responsible for the success and failures of the counter-
insurgency efforts in their Areas of Responsibility (AOR). The PRT is 
one of the BCT CDR's subordinate units, and the primary tool for 
synchronizing and enabling the development and governance lines of 
operation in the BCT's area of operations (AOR).
    Dr. Snyder. Witnesses stated they believed PRTs would be with us 
for some time. What is the DOD military personnel policy, and derived 
Service personnel policies, guiding the force structure planning, 
training, and education skill sets for PRTs and PRT-like missions (SSTR 
operations)? What is the DOD civilian personnel policy on coding 
civilian positions as deployable for both GS and WG employees? Do these 
policies account for deployment to war zones rather than secure 
locations?
    General Wilkes. The DOD military sourcing policy for filling the 
PRT manpower requirements is based on the Joint Request For Forces 
(RFF) process. The manpower requirements and skill sets for the PRTs 
were previously validated by the Commander of Central Command and 
passed to the Joint Staff for action. The Joint Staff passes the 
requirements to Joint Forces Command to fill the personnel billets 
through a sourcing process where requirements are filled based upon 
Military Occupational Specialty (MOS) by each of the services. In the 
PRT the major functions are command, logistics, administration, 
security, and enablers. The command slots are filled by leaders hand-
picked by the services for their leadership skills and past 
performance. The administrative, logistics, and security functions are 
filled by available units and personnel from the services who are 
specifically trained to perform these functional duties. The enabler 
requirements are filled by the services with specific, low-density 
skills such as engineers, civil affairs, military police/police 
trainers, and Psychological Operations (PSYOPs). The requirement for 
the PRTs in Afghanistan is a ``standing RFF'' with specific skill set 
requirements that match military occupation specialties. The 
requirement for these specific skill sets drive the military force 
development process to ensure the services can meet the current and 
future needs of the CENTCOM Commander.
    Currently no DOD civilians are deployed with the PRTs in 
Afghanistan.
    Dr. Snyder. How is the PRT experience in Afghanistan informing 
DOD's work in developing stability operations capabilities under DOD 
Directive 3000.05, ``Military Support for Stability, Security, 
Transition, and Reconstruction,'' which gives stability operations 
priority comparable to combat operations?
    General Wilkes. The PRT experience informs DOD's work on developing 
stability operations capabilities through studies and products from the 
Center for Army Lessons Learned (CALL). CALL produced the PRT Playbook, 
the most recent comprehensive product that captures the lessons learned 
from PRTs in both Afghanistan and Iraq. Periodically the CALL conducts 
on-site visits to capture lessons learned for their quarterly reports. 
This information is routinely shared with the Joint Center for 
Operational Lessons Learned and the Office of the Secretary of Defense 
for Special Operations and Low-Intensity Conflict (SOLIC).
    Dr. Snyder. Is there an overall PRT coordinator within DOD to 
interface with the State Department and other agencies? Should there 
be? Who attends the PCC meetings on PRTs for DOD?
    General Wilkes. The principal DOD coordinator for PRTs in 
Afghanistan is the Principal Deputy Assistant Secretary of Defense for 
Asia Pacific and Security Affairs (APSA). There is no overall PRT 
coordinator within DOD-however; the Assistant Secretary of Defense 
(ASD) for Special Operations and Low Intensity Conflict and 
Interdependent Capabilities (SOLIC) has the overall lead on policy 
matters related to the future of PRTs and PRT-like concepts. PCC 
meetings on PRTs in Afghanistan are attended by the Deputy Assistant 
Secretary of Defense (DASD) for Central Asian Affairs, who reports to 
the PDASD (APSA).
    Dr. Snyder. Does DOD need more civil affairs teams? Please describe 
the difference between the civil affairs mission/operations and the PRT 
mission/operations.
    General Wilkes. PRTs in Afghanistan are currently manned with the 
appropriate number of civil affairs teams (2 per PRT). More civil 
affairs teams on a PRT would require a larger security contingent. The 
current Afghan PRT security force structure supports the mission 
requirements for two civil affairs teams and the command group (PRT 
commander, USAID rep, USDA rep, and DOS rep).
    Civil affairs is one of the enabling components of the PRT mission. 
The other enabling components are military police/police trainers, 
engineers, and PSYOPs. The civil affairs teams in the Afghan PRTs 
execute and implement the actions that are planned and coordinated by 
the PRT command group, the Brigade Combat Team Commander, and support 
CJTF-82's Operational Plan and the directives of the commander. Civil 
affairs missions focus military planning, coordination and expenditure 
of resources to facilitate civil actions to support the military 
mission; in the case of Afghanistan it is to support a counter-
insurgency.
    Dr. Snyder. We have been hearing a lot about how PRTs are 
attempting to improve the security situation on the ground, and that in 
Afghanistan, security is the key metric of success for PRTs, but what 
about the reconstruction aspect of PRTs? It seems some PRTs are not 
engaged in much--if any--reconstruction, but are rather being used as 
an extension of U.S. military operations separate from the ISAF effort. 
How much of the PRTs work is focused on actual reconstruction?
    General Wilkes. A lack of adequate security is a symptom of the 
problem that drives an insurgency; it is not the root cause. The PRT 
improves the security of a particular area by enabling the government 
to connect with the people and eventually transform the environment. 
The PRTs help the Afghan government connect with the populace by 
building capacity in the Provincial and District governments to meet 
the needs of their constituents, providing limited security and 
mobility as necessary to government officials to gain access to the 
people and meet with local leaders (tribal elders), and in many cases 
improving the government-provided services such as roads, bridges, 
humanitarian aid distribution, and education. The PRTs also assist the 
sub-national Afghan government in the transformation of the environment 
by facilitating the planning, coordination, and resourcing of 
reconstruction and development in Provinces and Districts. By executing 
these tasks the PRTs improve the security of the situation on the 
ground.
    US military forces in Afghanistan obligated more than $80 million 
in FY 2006 in Commander's Emergency Response Program (CERP) funding for 
Afghan capacity building and reconstruction and development. In FY 2007 
the US military obligated $120 million for the same purposes. PRTs 
dispersed more than 80% of this funding. PRTs operate under the command 
and control of ISAF, and all actions are managed through CJTF-82 (an 
ISAF command). PRTs are fully engaged in the coordination and execution 
of reconstruction. Their contribution to the reconstruction and 
development of Afghanistan dwarfs that of all other entities from the 
international community except for USAID. Depending on the particular 
Province roughly 75% of PRT work is in reconstruction and development, 
15% in capacity building and governance, and 10% in security.
    Dr. Snyder. How does the work of the PRTs in Iraq support larger 
campaign plans and strategies? What measurable gains toward fulfillment 
of the overall strategies/campaign objectives have been made as the 
result of the PRT program?
    Colonel Baker. The work of PRTs in Iraq supports the Joint Campaign 
Plan (JCP), written in concert by MNF-I and the US Embassy, and the New 
Way Forward Strategy. The essence of the PRT mission is to coach, train 
and mentor provincial, district and municipal governments to increase 
their capacity to govern and deliver essential services and to assist 
in developing local economies. This effort supports the JCP and its 
strategic objectives.
    One key area where PRTs have focused their efforts to fulfilling 
the broader strategy in Iraq is budget development and execution. 
Effective budget development and execution helps increase the ability 
of local governments to provide services for their citizens, increases 
coordination and interaction between central and local governments, and 
builds management, planning, and leadership skills for government 
officials.
    Through the Local Governance Program, PRTs have trained 2,000 
council members, 28 governors, 42 deputy governors, 420 directors 
general and key staff in 380 departments to manage and execute budgets. 
In turn, Provincial Councils are improving their ability to plan and 
execute budgets. For example, by the end of 2006, provinces had 
committed only 49% of their budget funds. To date, according to PRT 
data, provinces have already committed 60% of their 2007 budget funds.
    Provincial Councils are also increasing their ability to conduct 
long term planning and development and incorporate this into their 
budgets. For example, on October 10, 2007 the Baghdad Provincial 
Council's strategic planning committee completed its Provincial 
Development Strategy (PDS) and presented it to the Ministry of 
Planning. By coordinating how provincial and national governments 
create and spend their budgets over the coming years, the PDS is 
described by provincial officials as the most important mechanism 
connecting these governance entities. This was the result of a one-
year-plus effort by provincial officials, working closely with PRT and 
USAID staff, who provided capacity development and technical 
assistance.
    As provincial councils become more effective at budget execution, 
the central government has increased the amount of money in their 
budgets. For example, on September 30the Provincial Council of Babil 
was rewarded for its effective budget execution with an additional $40 
million in its 2007 capital expenditures budget. The Provincial Council 
of Anbar was rewarded with a 70 percent increase in its 2007 provincial 
capital budget. The amount of the GOI capital budget that goes directly 
to the 18 provinces is expected to increase next year, and PRTs will 
continue to coordinate with Provincial Councils in the planning and 
execution of their budgets.
    PRTs have also worked with and coordinated ethnic and political 
reconciliation initiatives in Ninewa, Anbar, Diyala, Wasit, and 
Karbala. PRTs brought tribal leaders and government officials to work 
in concert on stemming the influence of militias and terrorist 
organizations and improving border security. As we have seen in Anbar, 
and are starting to see elsewhere, these initiatives are making 
demonstrable contributions to local political reconciliation and the 
restoration of a secure environment, which helps facilitate improved 
economic development and governance.
    Dr. Snyder. Who in DOD is involved in the planning processes for 
PRTs? How is the planning overseen? How is execution and implementation 
measured and overseen? Who approves the PRT work plans and monitors 
progress against the work plans? How are PRTs (and PRT members) held 
accountable for the fulfillment of their work plans?
    Colonel Baker. OSD-Policy, the Joint Staff, CENTCOM, MNF-I, MNC-I, 
and its subordinate units down to the BCT/RCT level, are involved in 
the PRT planning process. BCT Commanders co-author civil-military plans 
with their ePRTs that are approved my MNC-I. In its campaign planning 
and execution, MNF-I works with the Embassy Team and the Office of 
Provincial Affairs (OPA) on PRT planning. OSD-P and Joint Staff J1 and 
J5 action officers attend regular working group and sub-working group 
meetings in Washington D.C. on PRTs.
    OSD-Policy, Joint Staff/J1 and J5 and Navy worked together with the 
State Department to plan and oversee the surge ePRT manning process 
when the President announced the New Way Forward Strategy in January 
2007. This effort culminated in a memorandum of agreement between the 
departments on ePRT manning and backfill.
    On behalf of the U.S. Ambassador to Iraq, the Office of Provincial 
Affairs (OPA) at the U.S. Embassy in Baghdad approves PRT work plans 
and monitors progress against the work plans. Through a steering group, 
OPA consults closely with the Iraq Transition Assistance Office, USAID, 
the rule of law working group, the Political, Political/Military and 
Economic sections, and with MNF-I and MNC-I on work plans, their 
progress, and planning for the future of PRTs.
    OPA holds PRTs and their members accountable through regular 
performance reviews of personnel, by reviewing work plans in progress, 
and through activity reports submitted by the PRTs. OPA initiated an 
interagency working group to establish performance indicators for PRTs 
and for assessing progress of provincial governments. Baseline 
assessment of the provinces will be completed by the end of November 
2007 and work plans will be adjusted accordingly.
    Dr. Snyder. Witnesses stated they believed PRTs would be with us 
for some time. What is the DOD military personnel policy, and derived 
Service personnel policies, guiding the force structure planning, 
training, and education skill sets for PRTs and PRT-like missions (SSTR 
operations)? What is the DOD civilian personnel policy on coding 
civilian positions as deployable for both GS and WG employees? Do these 
policies account for deployment to war zones rather than secure 
locations?
    Colonel Baker. Provincial Reconstruction Teams (PRTs) were 
established as a result of the need to develop the infrastructure 
necessary for the Afghan and Iraqi people to succeed in the post-
conflict environment. A PRT is an interim civil-military organization 
designed to operate in semi-permissive environments usually following 
open hostilities but can be used before, during and after hostilities 
if necessary. The mission is specifically tailored for Civil Affairs 
(CA) Soldiers along with Reserve and National Guard Soldiers who bring 
their civilian skills and knowledge to the reconstruction effort. PRTs 
do not require new force structure but do require additional training 
and education of the CA units and attached members to inform them of 
the environment in which they operate.
    DoD is granted statutory authority under section 1580 of title 5, 
United States Code, to designate positions that meet the following 
three criteria as ``Emergency Essential''. The following criteria apply 
to all DoD appropriated and non-appropriated fund positions, whether 
they are GS or WG:
    1. The duties of the position provide immediate and continuing 
support for combat operations or are to support maintenance and repair 
of combat essential systems of the armed forces;
    2. The employee must perform those duties in a combat zone after 
the evacuation of non-essential personnel (including any dependents of 
members of the armed forces) from the combat zone in connection with a 
war, a national emergency declared by Congress or the President, or the 
commencement of combat operations of the armed forces in the zone; and
    3. It is impracticable to convert the employee's position to a 
position authorized to be filled by a member of the armed forces 
because of a necessity for that duty to be performed without 
interruption.
    DoD Directive 1404.10 (``Emergency Essential (E-E) DoD U.S. Citizen 
Civilian Employees'') requires positions that meet the provisions of 5 
U.S.C. 1580 to be designated as emergency essential, and requires 
documentation of the designation within the position descriptions for 
the positions. The directive further requires emergency essential 
positions to be coded in automated civilian personnel records and 
reported quarterly to the Defense Manpower Data Center (DMDC).
    The authority provided under 5 U.S.C. 1580 and the DoD implementing 
policy under DoD 1404.10 accounts for deployment to combat zones. 
However, the Department deploys DoD civilians to support combat, 
contingency and emergency operations throughout the world, whether or 
not their positions are designated as emergency essential. Such 
employees generally are employee volunteers and typically serve in a 
temporary duty (TDY) status.
    Dr. Snyder. How is the PRT experience in Iraq informing DOD's work 
in developing stability operations capabilities under DOD Directive 
3000.05, ``Military Support for Stability, Security, Transition, and 
Reconstruction,'' which gives stability operations priority comparable 
to combat operations?
    Colonel Baker. Provincial Reconstruction Teams (PRTs) in 
Afghanistan and Iraq are a key civil-military adaptation the Department 
is examining in its implementation of DoD Directive 3000.05 and its 
support to the State Department-led effort to implement NSPD-44 
``Management of Interagency Efforts Concerning Reconstruction & 
Stabilization'' across the U.S. Government.
    Both DoDD 3000.05 and NSPD-44 focus on improving civil-military 
integration. PRTs serve as a critical model for integrating the 
programs of many agencies and working with local populations to meet 
immediate needs and build their capacity. DoD aims to take the best 
from that tool set in order to build even more effective civil-military 
teams that can respond to a variety of contingencies in the future.
    A key step in improving civil-military coordination is to define 
appropriate roles for USG agencies and derive from that the 
capabilities required to fill those responsibilities. Experiences with 
PRTs in Iraq and Afghanistan have underscored the importance of 
civilian expertise in stability operations and the supporting role that 
the military plays in such missions. DoD is developing its capabilities 
with that supporting role in mind while recognizing the military may be 
required to perform certain missions if increases in current civilian 
capacity are not realized.
    Dr. Snyder. You stated that the ePRTs are successful. Do the 
Departments of Defense and State have a plan to convert the initial 10 
PRTs to ePRTs?
    Colonel Baker. PRT operations are dynamic and adjustments are 
continually being made to adapt to conditions on the ground. We are 
also applying lessons learned to ensure PRTs are serving our strategic 
objectives. At present, there is no plan to restructure existing PRTs 
into ePRTs. In fact, we are bolstering PRT capabilities by increasing 
staffing and augmenting subject matter experts to address local 
requirements.
    Dr. Snyder. Please describe a PST and explain how it operates in 
provinces that have been transferred to Provincial Iraqi Control (PIC). 
How large is a PST? What skill-sets are represented on PSTs? Who is in 
command or in the lead of the PST?
    Colonel Baker. A PST is a small team of advisors who provide advice 
to provincial officials but for security and logistical reasons are not 
based in the province with which they work. PSTs that cover Karbala and 
Najaf operate from Al-Hillah, PSTs for Maysan and Muthana operate from 
Tallil in Dhi Qar province, and PSTs for Dahuk and Sulaymaniyah operate 
from Erbil. We are examining converting as many PSTs to PRTs as 
possible.
    PSTs that operate in provinces that have been transferred to 
Provincial Iraqi Control (PIC) have had no major change in their 
operations. PSTs are smaller than a PRT by design, and six of seven 
PSTs already operate in provinces that have PIC'd because these 
provinces are doing relatively well in governing capacity and economic 
development.
    The number of people in a PST varies from one to nine people, 
depending on conditions and the scope of the PST's responsibilities.
    The skill sets on PSTs are tailored to meet local needs. Like PRTs, 
PSTs may include specialists in public diplomacy, governance, 
agriculture, public health, city management, urban planning, cultural 
heritage, rule of law, economic development, public finance, business 
development, industrial management, and budget planning and execution.
    Like PRTs, PSTs are led by Foreign Service Officers.
    Dr. Snyder. Is there an overall PRT coordinator within DOD to 
interface with the State Department and other agencies? Should there 
be? Who attends the PCC meetings on PRTs for DOD?
    Colonel Baker. There is no overall PRT coordinator within DOD to 
interface with the State Department and other agencies. Rather, the 
Under Secretary of Defense for Policy (USD-P), the Deputy Under 
Secretary of Defense (DUSD) for Personnel and Readiness (P&R), the 
Joint Staff (JS) Manpower and Personnel Directorate (J1) and Strategic 
Plans and Policy Directorate (J5), and the Navy N3/5 are the main 
offices that coordinate policy, training and manning issues for PRTs 
within DoD.
    More specifically, the USD-(P) is assisted by the Assistant 
Secretary of Defense (ASD) for International Security Affairs (ISA) 
through its Deputy Assistant Secretary of Defense (DASD) for the Middle 
East (ME)/Iraq office on day to day issues in Iraq and by the ASD for 
Special Operations/Low Intensity Conflict (SO/LIC) DASD for Stability 
Operations Capabilities on the future of PRT like concepts. Both 
offices work closely with the DUSD (P&R) and the JS/J1 and J5. This 
arrangement allows different offices to apply their given expertise 
(country specific, future concepts, training and manning) for PRTs in 
Iraq.
    The DOD representatives that attend the PCC meetings on PRTs for 
Iraq are from the offices of the ASD (ISA)/DASD--ME/Iraq and the JCS/
J5.
    Dr. Snyder. Does DOD need more civil affairs teams? Please describe 
the difference between the civil affairs mission/operations and the PRT 
mission/operations.
    Colonel Baker. DOD is planning to increase the number of civil 
affairs (CA) teams. The CA force in the U.S. Army Reserves is 
programmed to grow from 64 CA companies in FY07 to a total of 112 CA 
companies in FY11. The active component CA force will concurrently grow 
from 6 CA companies in FY06 to 16 CA companies in FY09. Further, the 
U.S. Army is currently investigating whether additional CA force 
structure is required.
    PRTs work closely with host-nation government agencies, external 
government agencies, and non-governmental organizations. Depending on 
the needs of the individual province, the teams may be manned by 
personnel from the Department of State, U.S. Agency for International 
Development, MNF-I, U.S. Department of Justice, U.S. Department of 
Agriculture, the Gulf Region Division of the Army Corps of Engineers, 
and representatives from Coalition partners.
    Compared to traditional CA units, PRT's often have a higher level 
of expertise from a variety of sources led by civilian officers. CA 
units are designated to support a military combat formation and CA 
units often focus their efforts at a lower level of government than 
does a PRT. Additionally, CA units will often work in areas deemed too 
dangerous for a PRT to freely operate.
    Dr. Snyder. What happens to the PRTs when a province goes to 
Provincial Iraqi Control? What happens to PRTs when U.S. combat forces 
transition to tactical overwatch? Operational overwatch? Strategic 
overwatch?
    Colonel Baker. Currently, two PRTs are serving in provinces that 
have experienced Provincial Iraq Control--those in Dhi Qar and Irbil. 
In both cases, the PRTs have continued to provide the same level of 
service to their provincial councils that they provided before PIC. 
PRTs are not permanent structures. As key legislation, such as the 
provincial powers law, is passed and provinces hold local elections, 
the provinces capacity to govern will grow. As this occurs, it is 
envisioned that the PRTs will, over time, be no longer needed in Iraq.
    The issue of what will happen to PRTs in provinces when U.S. forces 
transition is currently under assessment by MNF-I. As directed by the 
President, MNF-I is currently revising the Joint Campaign Plan. This 
document will reflect comprehensive operational adjustments to keep in 
step with the drawdown of U.S. forces from 20 to 15 Brigade and 
Regimental Combat Teams (BCT/RCT) that begins in December 2007.
    Until the revised Campaign Plan is approved and published, it would 
be premature to accurately answer the remaining questions about 
overwatch.
    Dr. Snyder. How does the work of the PRTs in Iraq support larger 
campaign plans and strategies? What measurable gains toward fulfillment 
of the overall strategies/campaign objectives have been made as the 
result of the PRT program?
    General Kimmitt. The work of PRTs in Iraq supports the New Way 
Forward Strategy and the Joint Campaign Plan (JCP), written in concert 
by MNF-I and the US Embassy. The essence of the PRT mission is to 
coach, train and mentor provincial, district and municipal governments 
to increase their capacity to govern and deliver essential services and 
to assist in developing local economies. This effort supports the JCP 
and its strategic objectives.
    One key area where PRTs have focused their efforts to fulfill the 
broader strategy in Iraq is budget development and execution. Effective 
budget development and execution helps increase the ability of local 
governments to provide services for their citizens, increases 
coordination and interaction between central and local governments, and 
builds management, planning, and leadership skills for government 
officials.
    Through the Local Governance Program, PRTs have trained 2,000 
council members, 28 governors, 42 deputy governors, 420 directors 
general and key staff in 380 departments to manage and execute budgets 
throughout Iraqi provincial ministries. In turn, Provincial Councils 
are improving their ability to plan and execute budgets. For example, 
by the end of 2006, provinces had committed only 49% of their calendar 
year budget funds. To date, according to PRT data, provinces have 
already committed 60% of their 2007 budget funds.
    Provincial Councils are also increasing their ability to conduct 
long term planning and development and incorporate this into their 
budgets. For example, on October 10, 2007 the Baghdad Provincial 
Council's strategic planning committee completed its Provincial 
Development Strategy (PDS) and presented it to the Ministry of 
Planning. By coordinating how provincial and national governments 
create and spend their budgets over the coming years, the PDS is 
described by provincial officials as the most important mechanism 
connecting these governance entities. This was the result of a one-
year-plus effort by provincial officials, working closely with PRT and 
USAID staff, who provided capacity development and technical 
assistance.
    As provincial councils become more effective at budget execution, 
the central government has increased the amount of money in their 
budgets. For example, on September 30, the Provincial Council of Babil 
was rewarded for its effective budget execution with an additional $40 
million in its 2007 capital expenditures budget. The Provincial Council 
of Anbar was rewarded with a 70 percent increase in its 2007 provincial 
capital budget. The amount of the GOI capital budget that goes directly 
to the 18 provinces is expected to increase next year, and PRTs will 
continue to coordinate with Provincial Councils in the planning and 
execution of their budgets.
    PRTs have also worked with and coordinated ethnic and political 
reconciliation initiatives in Ninewa, Anbar, Diyala, Wasit, and 
Karbala. PRTs brought tribal leaders and government officials to work 
in concert on stemming the influence of militias and terrorist 
organizations and improving border security. As we have seen in Anbar, 
and are starting to see elsewhere, these initiatives are making 
demonstrable contributions to local political reconciliation and the 
restoration of a secure environment, which helps facilitate improved 
economic development and governance.
    Dr. Snyder. Who in DOD is involved in the planning processes for 
PRTs? How is the planning overseen? How is execution and implementation 
measured and overseen? Who approves the PRT work plans and monitors 
progress against the work plans? How are PRTs (and PRT members) held 
accountable for the fulfillment of their work plans?
    General Kimmitt. OSD-Policy, the Joint Staff, CENTCOM, MNF-I, MNC-
I, and its subordinate units down to the Brigade Combat Team (BCT)/
Regimental Combat Team (RCT) level, are involved in the PRT planning 
process. BCT Commanders co-author civil-military plans with their ePRTs 
that are approved by MNC-I. In its campaign planning and execution, 
MNF-I works with the Embassy Team and the Office of Provincial Affairs 
(OPA) on PRT planning. OSD-P and Joint Staff J1 and J5 action officers 
attend regular working group and sub-working group meetings in 
Washington D.C. on PRTs.
    OSD-Policy, Joint Staff J1 and J5 and Navy worked together with the 
State Department to plan and oversee the surge ePRT manning process 
when the President announced the New Way Forward Strategy in January 
2007. This effort culminated in a memorandum of agreement between the 
departments on ePRT manning and backfill.
    On behalf of the U.S. Ambassador to Iraq, OPA approves PRT work 
plans and monitors progress against the work plans. Through a steering 
group, OPA consults closely with the Iraq Transition Assistance Office 
(ITAO), USAID, the interagency Rule of Law working group, the embassy's 
Political, Political/Military and Economic sections, and with MNF-I and 
MNC-I on work plans, their progress, and planning for the future of 
PRTs.
    OPA holds PRTs and their members accountable through regular 
performance reviews of personnel, by reviewing work plans in progress, 
and through activity reports submitted by the PRTs. OPA initiated an 
interagency working group to establish performance indicators for PRTs 
and for assessing progress of provincial governments. Baseline 
assessment of the provinces will be completed by the end of November 
2007 and work plans will be adjusted accordingly.
    Dr. Snyder. Witnesses stated they believed PRTs would be with us 
for some time. What is the DOD military personnel policy, and derived 
Service personnel policies, guiding the force structure planning, 
training, and education skill sets for PRTs and PRT-like missions (SSTR 
operations)? What is the DOD civilian personnel policy on coding 
civilian positions as deployable for both GS and WG employees? Do these 
policies account for deployment to war zones rather than secure 
locations?
    General Kimmitt. Provincial Reconstruction Teams (PRTs) were 
established as a result of the need to develop the infrastructure 
necessary for the Afghan and Iraqi people to succeed in the post-
conflict environment. A PRT is an interim civil-military organization 
designed to operate in semi-permissive environments usually following 
open hostilities but can be used before, during and after hostilities 
if necessary. Per Joint Staff (J1) the mission is specifically tailored 
for Civil Affairs (CA) along with Reserve and National Guard personnel 
who bring their civilian skills and knowledge to the reconstruction 
effort. PRTs do not require new force structure but do require 
additional training and education of the CA units and attached members 
to inform them of the environment in which they operate.
    DoD is granted statutory authority under section 1580 of title 5, 
United States Code, to designate positions that meet the following 
three criteria as ``Emergency Essential''. DoD's civilian personnel 
policy applies the following criteria to all DoD appropriated and non-
appropriated fund positions, whether they are GS or WG:
    1. The duties of the position provide immediate and continuing 
support for combat operations or are to support maintenance and repair 
of combat essential systems of the armed forces;
    2. The employee must perform those duties in a combat zone after 
the evacuation of non-essential personnel (including any dependents of 
members of the armed forces) from the combat zone in connection with a 
war, a national emergency declared by Congress or the President, or the 
commencement of combat operations of the armed forces in the zone; and
    3. It is impracticable to convert the employee's position to a 
position authorized to be filled by a member of the armed forces 
because of a necessity for that duty to be performed without 
interruption.
    DoD Directive 1404.10 (``Emergency Essential (E-E) DoD U.S. Citizen 
Civilian Employees'') requires positions that meet the provisions of 5 
U.S.C. 1580 to be designated as emergency essential, and requires 
documentation of the designation within the position descriptions for 
the positions. The directive further requires emergency essential 
positions to be coded in automated civilian personnel records and 
reported quarterly to the Defense Manpower Data Center (DMDC).
    The authority provided under 5 U.S.C. 1580 and the DoD implementing 
policy under DoD 1404.10 accounts for deployment to combat zones. 
However, the Department deploys DoD civilians to support combat, 
contingency and emergency operations throughout the world, whether or 
not their positions are designated as emergency essential. Such 
employees generally are employee volunteers and typically serve in a 
temporary duty (TDY) status.
    Dr. Snyder. How is the PRT experience in Iraq informing DOD's work 
in developing stability operations capabilities under DOD Directive 
3000.05, ``Military Support for Stability, Security, Transition, and 
Reconstruction,'' which gives stability operations priority comparable 
to combat operations?
    General Kimmitt. Provincial Reconstruction Teams (PRTs) in 
Afghanistan and Iraq are a key civil-military adaptation the Department 
is examining in its implementation of DoD Directive 3000.05 and its 
support to the State Department-led effort to implement NSPD-44 
``Management of Interagency Efforts Concerning Reconstruction & 
Stabilization'' across the U.S. Government.
    Both DoDD 3000.05 and NSPD-44 focus on improving civil-military 
integration. PRTs serve as a critical model for integrating the 
programs of many agencies and working with local populations to meet 
immediate needs and build their capacity. DoD aims to take the best 
from that tool set in order to build even more effective civil-military 
teams that can respond to a variety of contingencies in the future.
    A key step in improving civil-military coordination is to define 
appropriate roles for USG agencies and derive from that the 
capabilities required to fill those responsibilities. Experiences with 
PRTs in Iraq and Afghanistan have underscored the importance of 
civilian expertise in stability operations and the supporting role that 
the military plays in such missions. DoD is developing its capabilities 
with that supporting role in mind while recognizing the military may be 
required to perform certain missions if increases in current civilian 
capacity are not realized.
    Dr. Snyder. You stated that the ePRTs are successful. Do the 
Departments of Defense and State have a plan to convert the initial 10 
PRTs to ePRTs?
    General Kimmitt. At present, there is no plan to restructure 
existing PRTs into ePRTs. We are bolstering PRT capabilities by 
increasing staffing and augmenting subject matter experts to address 
local requirements. PRTs work closely with the Multi-National Divisions 
(MNDs), Multi-National Force-West (MNF-W) and the Brigade Combat Teams 
(BCT)/Regimental Combat Teams (RCT) in the provinces where they 
operate.
    PRT operations are dynamic. Adjustments are continually being made 
to adapt to conditions on the ground. We have an active program to 
apply lessons learned to ensure PRTs are serving our strategic 
objectives.
    Dr. Snyder. Please describe a PST and explain how it operates in 
provinces that have been transferred to Provincial Iraqi Control (PIC). 
How large is a PST? What skill-sets are represented on PSTs? Who is in 
command or in the lead of the PST?
    General Kimmitt. A Provincial Support Team (PST) is a small team of 
advisors who provide advice to provincial officials but for security 
and logistical reasons are not based in the province with which they 
work. PSTs that cover Karbala and Najaf operate from Al-Hillah, PSTs 
for Maysan and Muthana operate from Tallil in Dhi Qar province, and 
PSTs for Dahuk and Sulaymaniyah operate from Erbil. We are examining 
converting as many PSTs to PRTs as possible.
    PSTs that operate in provinces that have been transferred to 
Provincial Iraqi Control (PIC) have had no major change in their 
operations. PSTs are smaller than a PRT by design, and six of seven 
PSTs already operate in provinces that have PIC'd because these 
provinces are doing relatively well in governing capacity and economic 
development.
    The number of people in a PST varies from one to nine people, 
depending on conditions and the scope of the PST's responsibilities.
    The skill sets on PSTs are tailored to meet local needs. Like PRTs, 
PSTs may include specialists in public diplomacy, governance, 
agriculture, public health, city management, urban planning, cultural 
heritage, rule of law, economic development, public finance, business 
development, industrial management, and budget planning and execution.
    Like PRTs, PSTs are led by Foreign Service Officers.
    Dr. Snyder. Is there an overall PRT coordinator within DOD to 
interface with the State Department and other agencies? Should there 
be? Who attends the PCC meetings on PRTs for DOD?
    General Kimmitt. There is no overall PRT coordinator within DOD to 
interface with the State Department and other agencies. Rather, the 
Under Secretary of Defense for Policy (USD(P)), the Deputy Under 
Secretary of Defense (DUSD) for Personnel and Readiness (P&R), the 
Joint Staff (JS) Manpower and Personnel Directorate (J1) and Strategic 
Plans and Policy Directorate (J5), and the Navy N3/5 are the main 
offices that coordinate policy, training and manning issues for PRTs 
within DoD.
    More specifically, the USD(P) is assisted by the Assistant 
Secretary of Defense (ASD) for International Security Affairs (ISA) 
through its Deputy Assistant Secretary of Defense (DASD) for the Middle 
East (ME) office on day to day issues in Iraq and by the ASD for 
Special Operations/Low Intensity Conflict (SO/LIC) DASD for Stability 
Operations Capabilities on the future of PRT like concepts. Both 
offices work closely with the DUSD(P&R) and the JS J1 and J5. This 
arrangement allows different offices to apply their given expertise 
(country specific, future concepts, training and manning) for PRTs in 
Iraq.
    The DOD representatives that attend the PCC meetings on PRTs for 
Iraq are from the offices of the ASD(ISA)/DASD(ME) and the JS J5.
    Dr. Snyder. Does DOD need more civil affairs teams? Please describe 
the difference between the civil affairs mission/operations and the PRT 
mission/operations.
    General Kimmitt. DoD is planning to increase the number of civil 
affairs (CA) teams. The CA force in the U.S. Army Reserves is 
programmed to grow from 64 CA companies in FY07 to a total of 112 CA 
companies in FY11. The active component CA force will concurrently grow 
from 6 CA companies in FY07 to 16 CA companies in FY09. Further, the 
U.S. Army is currently reviewing whether additional CA force structure 
is required.
    PRTs work closely with host-nation government agencies, external 
government agencies, and non-governmental organizations. Depending on 
the needs of the individual province, the teams may be manned by 
personnel from the Department of State, U.S. Agency for International 
Development, MNF-I, U.S. Department of Justice, U.S. Department of 
Agriculture, the Gulf Region Division of the Army Corps of Engineers, 
and representatives from Coalition partners.
    Compared to traditional CA units, PRTs often have a higher level of 
expertise from a variety of sources led by civilian officers. CA units 
are designated to support a military combat formation and CA units 
often focus their efforts at a lower level of government than does a 
PRT. Additionally, CA units will often work in areas deemed too 
dangerous for a PRT to freely operate.
    Dr. Snyder. What happens to the PRTs when a province goes to 
Provincial Iraqi Control? What happens to PRTs when U.S. combat forces 
transition to tactical overwatch? Operational overwatch? Strategic 
overwatch?
    General Kimmitt. Currently, two PRTs are serving in provinces that 
have transitioned to Provincial Iraq Control--those in Dhi Qar and 
Irbil. In both cases, the PRTs have continued to provide the same level 
of service to their provincial councils that they provided before PIC. 
PRTs are not permanent structures. As key legislation, such as the 
provincial powers law, is passed and provinces hold local elections, 
the provinces' capacity to govern will grow. As this occurs, it is 
envisioned that the PRTs will, over time, be no longer needed in Iraq.
    The issue of what will happen to PRTs in provinces when U.S. forces 
transition is currently under assessment by MNF-I. As directed by the 
President, MNF-I is currently revising the Joint Campaign Plan (JCP). 
This document will reflect comprehensive operational adjustments to 
keep in step with the drawdown of U.S. forces from 20 to 15 Brigade and 
Regimental Combat Teams (BCT/RCT) that begins in December 2007.
    Until the revised JCP is approved and published, it would be 
premature to answer the remaining questions on overwatch.

                                  <all>

</pre></body></html>
